No.

In the Supreme Court of the United States
JIMMIE EUGENE WHITE, II, PETITIONER,
v.
UNITED STATES OF AMERICA
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
SIXTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
JEREMY C. MARWELL
VINSON & ELKINS LLP
2200 Penn. Ave., NW
Suite 500 West
Washington, DC 20037
(202) 639-6507
KENNETH P. TABLEMAN
KENNETH P. TABLEMAN,
P.C.
161 Ottawa Ave., NW
Suite 404
Grand Rapids, MI 49503
(616) 233-0455

JOHN P. ELWOOD
Counsel of Record
CRAIG D. MARGOLIS
R. STANTON JONES
CHRISTIAN D. SHEEHAN
ARNOLD & PORTER
KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
john.elwood@arnoldporter.com

QUESTION PRESENTED

The Speedy Trial Act, 18 U.S.C. §§ 3161 et seq., requires that a criminal information or indictment be filed
within 30 days of a defendant’s arrest, subject to certain
excludable delays. Bloate v. United States, 559 U.S. 196,
203 (2010). In addition to certain enumerated automatic
exclusions not at issue here, § 3161(h)(7) of the Act
“permits a district court to grant a continuance and to
exclude the resulting delay if the court, after considering
certain factors, makes on-the-record findings that the
ends of justice served by granting the continuance outweigh the public’s and defendant’s interests in a speedy
trial.” Zedner v. United States, 547 U.S. 489, 498–99
(2006) (emphasis added). “[W]ithout on-the-record findings” reflecting that the district court considered factors
specified in the Act and articulating “its reasons for finding that the ends of justice are served and they outweigh
other interests[,] * * * there can be no exclusion” under
§ 3161(h)(7). Id. at 506–07 (emphasis added).
The question presented is:
Whether, notwithstanding the plain language of
§ 3161(h)(7) of the Speedy Trial Act and this Court’s decision in Zedner, a district court may exclude time pursuant to a stipulation between the parties without making its own “on-the-record findings” that the ends of justice served by a continuance outweigh the interests of
the defendant and the public in a speedy trial.

(I)

PARTIES TO THE PROCEEDINGS

Jimmie Eugene White, II, was the appellant in the
United States Court of Appeals for the Sixth Circuit.
Respondent the United States of America was the appellee.

(II)

TABLE OF CONTENTS
Page
Question Presented .............................................................. I
Parties to the Proceedings ................................................ II
Appendix Contents............................................................ IV
Table of Authorities ............................................................ V
Opinions Below ..................................................................... 1
Jurisdiction ........................................................................... 1
Statutory Provisions Involved ............................................ 1
Statement .............................................................................. 2
A. The Speedy Trial Act ............................................. 4
B. Factual and Procedural Background ................... 7
Reasons For Granting The Petition................................. 11
I. There Is A Split Of Authority Over Whether
District Courts Must Make Express Ends-ofJustice Findings Where The Parties Agree To
Exclude Time .............................................................. 13
A. At Least Five Circuits Have Held That
Courts Must Make Express, On-The-Record
Findings Notwithstanding A Defendant's
Agreement To Exclude Time .............................. 14
B. Three Circuits Have Held That The Speedy
Trial Act Does Not Require Express
Findings Where The Parties Agree To A
Continuance And The Basis For The
Continuance Can Be Inferred From Context ... 18
II. The Decision Below Is Wrong ................................... 20
III. This Case Presents A Recurring Issue Of
National Importance .................................................. 25
IV. This Case Presents An Ideal Vehicle To
Resolve The Circuit Split ........................................... 26
Conclusion ........................................................................... 28
(III)

IV
Table of Contents—Continued

Page

APPENDIX CONTENTS
Appendix A: Opinion (6th Cir. Apr. 10, 2019) ................ 1a
Appendix B: Stipulation & Order (E.D. Mich. May
16, 2013) ..................................................... 35a
Appendix C: Motion to Dismiss Indictment
Hearing Transcript (E.D. Mich. Dec.
3, 2013) ....................................................... 39a
Appendix D: Opinion & Order Denying Motion to
Dismiss (E.D. Mich. Feb. 4, 2014) .......... 62a
Appendix E: Opinion (6th Cir. Feb. 16, 2017) .............. 72a
Appendix F: Order Granting Petition for Writ of
Certiorari (U.S. Jan. 8, 2018) .................. 88a
Appendix G: Order Denying Petition for Rehearing
(6th Cir. June 5, 2019) .............................. 89a
Appendix H: Speedy Trial Act, 18 U.S.C. § 3161 ........ 90a
Appendix I: Speedy Trial Act, 18 U.S.C. § 3162 ........ 99a
Appendix J: Indictment ............................................... 102a

TABLE OF AUTHORITIES
Cases
Page(s)
Bloate v. United States,
559 U.S. 196 (2010) ................................................. passim
Connecticut Nat’l Bank v. Germain,
503 U.S. 249 (1992) .......................................................... 21
Dodd v. United States,
545 U.S. 353 (2005) .......................................................... 21
Lafler v. Cooper,
566 U.S. 156 (2012) .......................................................... 26
Missouri v. Frye,
566 U.S. 134 (2012) .......................................................... 26
Parisi v. United States,
529 F.3d 134 (2d Cir. 2008) ........................... 11, 15, 16, 22
Richards v. United States,
369 U.S. 1 (1962) .............................................................. 21
Strickland v. Washington,
466 U.S. 668 (1984) .......................................................... 16
United States v. Ammar,
842 F.3d 1203 (11th Cir. 2016) ........................... 11, 14, 22
United States v. Baskin-Bey,
45 F.3d 200 (7th Cir. 1995) ............................................. 19
United States v. Blackwell,
12 F.3d 44 (5th Cir. 1994) ............................................... 21
United States v. Brown,
819 F.3d 800 (6th Cir. 2016) ........................................... 11
United States v. Bryant,
523 F.3d 349 (D.C. Cir. 2008) ............................. 11, 17, 23
United States v. Culbertson,
598 F.3d 40 (2d Cir. 2010) ............................................... 16
United States v. Janik,
723 F.2d 537 (7th Cir. 1983) ............................................. 6
(V)

VI
Cases—Continued

Page(s)

United States v. Jean,
25 F.3d 588 (7th Cir. 1994) ............................................. 20
United States v. Napadow,
596 F.3d 398 (7th Cir. 2010) ..................................... 19, 20
United States v. Odman,
47 F. App’x 221 (4th Cir. 2002) ...................................... 20
United States v. Ramirez-Cortez,
213 F.3d 1149 (9th Cir. 2000) ............................. 17, 18, 23
United States v. Richardson,
681 F.3d 736 (6th Cir. 2012) ........................................... 19
United States v. Sierra-Penaloza,
312 F. App’x 869 (9th Cir. 2009) .............................. 18, 22
United States v. Stone,
461 F. App’x 461 (6th Cir. 2012) .................................... 19
United States v. Toombs,
574 F.3d 1262 (10th Cir. 2009) ..................... 11, 14, 15, 22
Williford v. United States,
469 U.S. 893 (1984) .......................................................... 13
Zedner v. United States,
547 U.S. 489 (2006) ................................................. passim
Statutes & Rules

18 U.S.C.
§ 3161 ....................................................................... passim
§ 3161(b) ......................................................................... 1, 4
§ 3161(c)(1) ......................................................................... 4
§ 3161(h) .................................................................. passim
§ 3161(h)(1) .............................................................. passim
§ 3161(h)(7) .............................................................. passim
§ 3161(h)(7)(A) ................................................................. 21
§ 3161(h)(7)(B) ............................................................... 5, 7

VII
Statutes & Rules—Continued

Page(s)

§ 3161(h)(8) ......................................................................... 2
§ 3162 .................................................................................. 3
§ 3162(a)(1) ......................................................................... 6
§ 3162(a)(2) ......................................................................... 6
28 U.S.C.
§ 1254(1) .............................................................................. 1
Judicial Administration & Technical Amendments
Act of 2008, Pub. L. No. 110-406 ...................................... 2
Sup. Ct. R. 13.5 ..................................................................... 1
Legislative Materials

120 Cong. Rec. 41,781 (1974) ............................................. 20
H.R. Rep. No. 93-1508 (1974) ............................................ 26
S. Rep. No. 212, 69th Cong., 1st Sess. (1979) .............. 4, 25
Other Authorities

Br. of United States, United States v. White, No.
16-1009 (6th Cir. Aug. 31, 2016) ..................................... 24
U.S. Br. in Opp’n to Pet. for Writ of Cert., White
v. United States, No. 17-270 (Nov. 30, 2017) .............. 8, 9
U.S. Dep’t of Justice, Bureau of Justice Statistics,
Plea and Charge Bargaining Research
Summary (2011).............................................................. 26

PETITION FOR A WRIT OF CERTIORARI
OPINIONS BELOW

The opinion of the court of appeals (App. 1a–34a) is
reported at 920 F.3d 1109. The district court’s and magistrate judge’s orders are unreported but are reproduced
in the appendix. App.37a–38a; App.62a–71a.
JURISDICTION

The judgment of the court of appeals was entered on
April 10, 2019. A timely petition for rehearing was denied on June 5, 2019. App.89a. On August 27, 2019, Justice Sotomayor extended the time to file this petition until November 1, 2019. See 19A219. This Court has jurisdiction under 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED

Section 3161(b) of Title 18 of the United States Code
provides in part:
Any information or indictment charging an individual
with the commission of an offense shall be filed within
thirty days from the date on which such individual
was arrested or served with a summons in connection
with such charges.
Section 3161(h) of Title 18 of the United States Code
provides in part:
The following periods of delay shall be excluded in
computing the time within which an information or an
indictment must be filed, or in computing the time
within which the trial of any such offense must commence:
***
(7) (A) Any period of delay resulting from a continuance granted by any judge on his own motion or at
the request of the defendant or his counsel or at the

2
request of the attorney for the Government, if the
judge granted such continuance on the basis of his
findings that the ends of justice served by taking
such action outweigh the best interest of the public
and the defendant in a speedy trial. No such period
of delay resulting from a continuance granted by the
court in accordance with this paragraph shall be excludable under this subsection unless the court sets
forth, in the record of the case, either orally or in
writing, its reasons for finding that the ends of justice
served by the granting of such continuance outweigh
the best interests of the public and the defendant in a
speedy trial.
Further statutory provisions are reproduced in the
Appendix to this petition. App.90a–101a.1
STATEMENT

The Sixth Circuit’s continued disregard for the
Speedy Trial Act’s plain language and this Court’s precedent now brings petitioner’s case before the Court for
the second time. In 2017, the Sixth Circuit affirmed petitioner’s conviction because, although he was not indicted
within the 30-day period required by the Act, it concluded that a period of the intervening time during which the
parties were engaged in plea bargaining was automatically excludable from the speedy trial calculation under
§ 3161(h)(1). App.77a–79a.2 Petitioner sought review in
Before a recent amendment to the Speedy Trial Act, the endsof-justice exception was codified at 18 U.S.C. § 3161(h)(8). The recent amendment resulted in a renumbering of § 3161(h), but did
not change the text of the ends-of-justice provision itself. Judicial
Administration & Technical Amendments Act of 2008, Pub. L. No.
110-406, § 13, 122 Stat. 4291, 4294. For clarity, all citations in this
petition are to the current version of the statute.
1

References to § 3161, § 3162, and their respective subsections
are to Title 18 of the United States Code.
2

3
this Court and the Government conceded that the Sixth
Circuit’s decision was inconsistent with this Court’s decision in Bloate v. United States, 559 U.S. 196 (2010). The
Court then granted the petition, vacated the Sixth Circuit’s judgment, and remanded for further consideration.
App.88a.
On remand, the same Sixth Circuit panel by a sharply divided vote again affirmed petitioner’s conviction, this
time holding that although Bloate abrogated its prior decision as to automatic exclusion under § 3161(h)(1), the
same delay was excludable as an “ends-of-justice” continuance under § 3161(h)(7). App.11a–17a. That provision permits the exclusion of time only if “the court, after
considering certain factors, makes on-the-record findings that the ends of justice served by granting the continuance outweigh the public’s and defendant’s interests
in a speedy trial.” Zedner v. United States, 547 U.S. 489,
498–99 (2006) (emphasis added). Regardless of the defendant’s agreement to a delay, “without on-the-record
findings, there can be no exclusion under [§ 3161(h)(7)].”
Id. at 507. Notwithstanding this clear statutory instruction, the Sixth Circuit found delay excludable in the absence of such findings based solely on the parties’ stipulation. This Sixth Circuit decision is plainly inconsistent
with the Speedy Trial Act’s text and this Court’s precedent.
The Sixth Circuit, however, is not alone in its misapplication of the Act. The circuits are divided about
whether a district court must strictly comply with the
Speedy Trial Act’s mandate to make express, on-therecord findings where the parties agree that time should
be excluded. The Second, Ninth, Tenth, Eleventh, and
D.C. Circuits have correctly applied the Act’s plain language and Zedner, holding that neither the parties’
agreement to exclude time nor the surrounding context

4
can substitute for a district court’s express, on-therecord findings required by § 3161(h)(7). On the other
hand, the Fourth and Seventh Circuits, joined now by
the Sixth Circuit, have adopted a “flexible” application of
§ 3161(h)(7), holding that the district court itself need not
make the required findings where the court accepts the
parties’ stipulation to exclude time or the reasons for the
continuance can be inferred from context.
Further review is urgently warranted to enforce
Zedner and conclusively resolve this split of authority on
a commonly arising issue under the Speedy Trial Act.
Granting an exclusion of time under § 3161(h)(7) based
solely on the parties’ stipulation permits a district court
to abdicate responsibility for independently determining
whether a continuance serves the ends of justice, in contravention of congressional intent and “to the detriment
of the public interest.” Zedner, 547 U.S. at 502.
A. The Speedy Trial Act

1. “[T]he Speedy Trial Act comprehensively regulates the time within which a trial must begin.” Zedner,
547 U.S. at 500. The Act was designed to further “the
speedy trial protections afforded both the individual and
society by the Sixth Amendment” by setting “fixed time
limits” for criminal cases. S. Rep. No. 212, 96th Cong.,
1st Sess. 9 (1979).
The Act requires that an information or indictment
be filed within 30 days of arrest, § 3161(b), and that trial
commence within 70 days after the later of (1) the filing
of the information or indictment, or (2) the first appearance on the charges, § 3161(c)(1). “Section 3161(h) specifies * * * delays that are excludable from the calculation.” Bloate, 559 U.S. at 203. Some “delays are automatically excludable”—specifically, those expressly
enumerated in eight exemptions set forth in § 3161(h)(1).

5
Id. Other delays “are excludable only if the district court
makes certain findings enumerated in the statute.” Id.
2. The Act’s “ends-of-justice” exception, set forth in
§ 3161(h)(7), “permits a district court to grant a continuance and to exclude the resulting delay if the court, after
considering certain factors, makes on-the-record findings that the ends of justice served by granting the continuance outweigh the public’s and defendant’s interests
in a speedy trial.” Zedner, 547 U.S. at 498–99 (emphasis
added). “This provision gives the district court discretion—within limits and subject to specific procedures—
to accommodate limited delays for case-specific needs.”
Id. at 499. Although “Congress clearly meant to give
district judges a measure of flexibility in accommodating
unusual, complex, and difficult cases,” “it is equally clear
that Congress * * * saw a danger that such continuances
could get out of hand and subvert the Act’s detailed
scheme.” Id. at 508–09. “The strategy of [the ends-ofjustice exception], then, is to counteract substantive
openendednesss with procedural strictness. This provision demands on-the-record findings and specifies in
some detail certain factors that a judge must consider in
making those findings.” Id. at 509; see § 3161(h)(7)(B)
(factors include complexity of case, need for pretrial
preparation, and effect of delay on defendant’s representation, among others).
“[W]ithout on-the-record findings” reflecting that
the district court considered these factors and articulating its “reasons for finding that the ends of justice are
served and they outweigh other interests, * * * there can
be no exclusion.” Zedner, 547 U.S. at 506–07. “[P]assing
reference to” factors supporting the exclusion is inadequate. Id. at 507.
3. The Act “entitles [a criminal defendant] to dismissal of the charges if [the relevant] deadline is not met.”

6
Bloate, 559 U.S. at 199 (citing § 3162(a)(2)). The Act’s
mandatory dismissal sanction serves a deterrence function and “is binding on [courts] whatever [they] may
think of its wisdom.” United States v. Janik, 723 F.2d
537, 546 (7th Cir. 1983) (Posner, J.). “A judge may not
forgive a violation merely because the sanction that the
legislature has provided for the violation seems silly.”
Id. “Dismissal, however, need not represent a windfall.
A district court may dismiss the charges without prejudice, thus allowing the Government to refile charges or
reindict the defendant.” Bloate, 559 U.S. at 214 (citing
§ 3162(a)(1)).
4. Because the Speedy Trial Act is designed to protect both the defendant and the public interest in the efficient administration of justice, a defendant cannot prospectively waive the Act’s application, Zedner, 547 U.S.
at 500–01, “even if he believes it would be in his interest.”
Bloate, 559 U.S. at 211; accord Zedner, 547 U.S. at 501
(“[T]he Act was designed not just to benefit defendants
but also to serve the public interest by, among other
things, reducing defendants’ opportunity to commit
crimes while on pretrial release and preventing extended
pretrial delay from impairing the deterrent effect of punishment.” (citations omitted)). As this Court made clear
in Zedner, “[a]llowing prospective waiver[s] would seriously undermine the Act because there are many cases
* * * in which the prosecution, the defense, and the court
would all be happy to opt out of the Act, to the detriment
of the public interest.” 547 U.S. at 502. Accordingly,
“the Act demands that defense continuance requests fit
within one of the specific exclusions set out in
[§ 3161](h).” Id. at 500.

7
B. Factual and Procedural Background

1. On May 2, 2013, petitioner was arrested more
than two years after a search warrant had been executed
at his home. Two weeks later, petitioner’s then-counsel
and the Government stipulated that the preliminary
hearing scheduled for May 23, 2013 should be rescheduled for June 7, and the intervening 15-day period
“should be excluded from computing the time within
which an information or indictment must be filed because
the parties are engaged in plea negotiations, 18 U.S.C.
§ 3161(h)(1), and because the ends of justice served by
such continuance outweigh the interests of the public and
the defendant in a speedy trial.
See 18 U.S.C.
§ 3161(h)(7).” App.35a–36a.
In an order entered the following day that attached
the parties’ stipulation, the magistrate judge stated:
“This matter coming before the court on the stipulation
of the parties, it is hereby ORDERED that good cause
exists to extend the complaint and preliminary hearing
in this case” and the intervening time “should be excluded in calculating the time within which the defendant
shall be indicted under the Speedy Trial Act. 18 U.S.C.
§ 3161.” App.37a–38a. The order neither referenced automatic exclusion for plea-related delays under
§ 3161(h)(1), nor found under § 3161(h)(7) that the ends
of justice served by the continuance outweighed the public’s and petitioner’s interests in a speedy trial, let alone
discussed any of the factors set forth in § 3161(h)(7)(B)
that courts are required to consider before excluding
time under that provision. The Government did not indict petitioner within the statutorily-required 30-day period. See App.102a–108a.
Petitioner moved for appointment of new counsel,
arguing that his lawyer had stopped returning phone
calls after petitioner asked that counsel move to dismiss

8
the indictment for violation of the Speedy Trial Act. See
R.20, R.31 (motion for new attorney for failure to contest
Speedy Trial Act violations). Following appointment of
new counsel, petitioner moved to dismiss the indictment.
See R.35. The district court denied the motion, concluding that “[t]here was no Speedy Trial Act violation” because although White was not indicted within 30 days, 15
days within that period were excludable “because the
parties [were] engaged in plea negotiations,” App.68a,
and “[petitioner] and the government agreed that the
time period should be enlarged.” App.67a. The district
court did not make any findings justifying the exclusion
of time, instead relying entirely on the magistrate
judge’s order. App.53a (“I don’t have to [make a determination regarding the basis for an exclusion under the
Speedy Trial Act]. The Magistrate Judge made a finding
and I can rely on that.”).
After a jury trial, petitioner was convicted on all
counts.
2. On appeal, petitioner urged reversal of his conviction on several grounds, including that the district court
erred in denying his motion to dismiss the indictment on
the basis of a Speedy Trial Act violation. The Sixth Circuit unanimously affirmed petitioner’s conviction. With
respect to the Speedy Trial Act issue, the court held that
under then-circuit precedent, plea bargaining time was
automatically excludable under § 3161(h)(1). App.77a–
79a. The court did not address whether the time was independently excludable under § 3161(h)(7).
Petitioner sought review in this Court. The Government conceded that the Sixth Circuit’s holding concerning the automatic exclusion of plea bargaining time
was inconsistent with this Court’s decision in Bloate.
U.S. Br. in Opp’n to Pet. for Writ of Cert. 10–11, White v.
United States, No. 17-270 (Nov. 30, 2017). The Govern-

9
ment, however, urged the Court to deny review because
the district court’s judgment could be affirmed on the independent ground that the time was properly excluded
as an ends of justice continuance under § 3161(h)(7). Id.
at 19–20. On January 8, 2018, this Court granted the petition, vacated the Sixth Circuit’s judgment, and remanded for further consideration. App.88a.
3. The parties submitted supplemental briefing on
remand regarding the effect of Bloate and whether, alternatively, the time at issue was excludable under
§ 3161(h)(7).
4. On April 10, 2019, a sharply-divided panel of the
Sixth Circuit again affirmed petitioner’s conviction, with
each judge writing separately.
a. The panel unanimously held that this Court’s decision in Bloate abrogated prior circuit precedent regarding the automatic exclusion of plea bargaining time.
App.6a–8a.3
b. The panel majority (Judges Griffin and Guy),
however, held that the period of delay was nonetheless
excludable under the ends-of-justice exception,
§ 3161(h)(7), and affirmed petitioner’s conviction on that
basis alone. App.11a–17a; App.20a (Guy, J., concurring
in part and in the judgment). The majority reasoned
that the magistrate judge’s “succinct and plain” order attaching the parties’ stipulation, together with the “surTwo members of the panel (Judges Clay and Guy) held that petitioner preserved his argument that Bloate abrogated circuit
precedent, and thus the time period between his arrest and indictment could not be excluded under § 3161(h)(1). App.18a–20a
(Guy, J., concurring in part and in the judgment); App.25a–29a
(Clay, J., concurring in part and dissenting in part). Judge Griffin
would have held that petitioner forfeited his Bloate argument, despite the Government’s confession of error and this Court’s GVR.
App.8a–11a.
3

10
rounding context,” was “sufficient to support the continuance.” App.17a.
According to the majority, the fact that the magistrate judge attached the parties’ stipulation to its order
was “sufficient” to satisfy the Speedy Trial Act’s requirement that the judge “set[] forth, in the record of the
case * * * its reasons for finding that the ends of justice
[are] served by the granting of such continuance.”
App.15a–16a. The majority concluded that, under the
circumstances, it could be inferred that the parties’ proffered reasons for a continuance (which simply stated that
“the parties are engaged in plea negotiations” and “the
ends of justice served by such continuance outweigh the
interests of the public and the defendant in a speedy trial,” App.36a) “found their way into the magistrate’s determination.” App.15a. The majority further distinguished Zedner on its facts, reasoning that Zedner was
limited to “wide-ranging and open-ended” delays, while
the exclusion at issue in this case was a “mere two
week[s].” App.16a–17a.
c. Judge Clay dissented in relevant part, writing
that “[t]he [magistrate judge’s] order did not mention
the ends of justice or the interest of the defendant and
the public in a speedy trial, let alone any reasons for
finding that one outweighed the other. Accordingly, the
magistrate judge plainly did not comply with
§ 3161(h)(7), and that should be the end of the matter.”
App.32a (Clay, J., concurring in part and dissenting in
part). Judge Clay wrote that “the majority[’s] attempt[]
to circumvent this conclusion by relying on the joint
stipulation * * * is starkly inconsistent with the Supreme
Court’s * * * emphasis on the importance of complying
with § 3161(h)(7)’s procedural strictness.” App.32a–33a
(citing Zedner, 547 U.S. at 508–09). Noting the conflicting decisions of several other circuits, Judge Clay concluded that “the mere agreement of the parties * * *

11
cannot substitute for the district court’s own findings.”
App.33a (citing United States v. Ammar, 842 F.3d 1203,
1206–07 (11th Cir. 2016) and Parisi v. United States, 529
F.3d 134, 140 (2d Cir. 2008)). Again citing decisions of
other circuits, Judge Clay further wrote that merely
parroting the language of § 3161(h)(7) through a “short,
conclusory statement[] lacking in detail” did not satisfy
the Act’s requirements. App.33a–34a (citing United
States v. Toombs, 574 F.3d 1262, 1271 (10th Cir. 2009)
and United States v. Bryant, 523 F.3d 349, 361 (D.C. Cir.
2008)). It instead was “a maneuver[] aimed at merely
paying lip service to the Speedy Trial Act’s requirements.” App.34a (quoting United States v. Brown, 819
F.3d 800, 815 (6th Cir. 2016)).
d. The Sixth Circuit denied petitioner’s timely petition for rehearing en banc.
REASONS FOR GRANTING THE PETITION

This Court has squarely held that the Speedy Trial
Act’s ends-of-justice exception, § 3161(h)(7), requires
“express findings,” Zedner, 547 U.S. at 506, and “specifies in some detail certain factors that a judge must consider in making those findings.” Id. at 509. Failure to
make those findings is not “harmless error” and requires
dismissal of criminal charges. Id. Yet, the Sixth Circuit
majority’s decision permitting the required “findings” to
be established entirely by a conclusory stipulation of the
parties, circumvents these fundamental Speedy Trial Act
guarantees. If permitted to stand, this rule would allow
parties to fashion their own open-ended Speedy Trial Act
continuances essentially free from judicial supervision
and without independent findings that delay is in the
public interest. The Sixth Circuit’s decision deepens an
established split on an important and recurring issue.
Its decision joins the Fourth and Seventh Circuits, which
too decline to enforce Zedner where parties agree to

12
Speedy Trial Act continuances. But those courts sharply
conflict with decisions of at least five circuits that have
faithfully applied Zedner, strictly adhering to
§ 3161(h)(7)’s requirement of express, on-the-record judicial findings.
By holding that the magistrate judge properly excluded time under the ends-of-justice exception simply
by accepting the parties’ generic stipulation (which itself
did not discuss the § 3161(h)(7) factors), the Sixth Circuit
ignored both the plain meaning of § 3161(h)(7) and this
Court’s directive that “without on-the-record findings,”
“there can be no exclusion.” Zedner, 547 U.S. at 507.
This case presents an appropriate vehicle for this Court
to resolve widespread confusion over this important issue and to ensure consistent, nationwide compliance with
the requirements of a statute potentially at issue in every federal criminal prosecution.

13
I.

There Is A Split Of Authority Over Whether District
Courts Must Make Express Ends-Of-Justice Findings
Where The Parties Agree To Exclude Time

Notwithstanding this Court’s clear directive in
Zedner, the circuits remain divided as to whether a district court must strictly comply with the Speedy Trial
Act’s mandate to make express, on-the-record findings
where the parties agree that time should be excluded.
The Second, Ninth, Tenth, Eleventh, and D.C. Circuits
have given effect to the Act’s plain language and Zedner,
holding that neither the parties’ agreement to exclude
time nor the surrounding context can substitute for a
judge’s on-the-record findings that the ends-of-justice
served by a continuance outweigh the defendant’s and
the public’s interest in a speedy trial. On the other hand,
the Fourth, Sixth, and Seventh Circuits have adopted a
“flexible” application of § 3161(h)(7), holding that the district court itself need not make express, on-the-record
findings where the court accepts the parties’ stipulation
to exclude time or the reasons for the continuance can be
inferred from context.
Congress enacted the Speedy Trial Act to provide a
uniform national rule to expedite federal criminal trials,
with compliance ensured by the mandatory sanction of
dismissal (with or without prejudice). Yet, because of
the conflicting rulings of the various circuits, whether
the important societal interests in a speedy trial are given effect “now depends almost as much on the happenstance of geography as it does on the will of the Legislative Branch.” Williford v. United States, 469 U.S. 893,
894 (1984) (White, J., dissenting from denial of certiorari
in Speedy Trial Act case). This Court should grant certiorari to ensure consistent nationwide application of the
Speedy Trial Act.

14
A.

At Least Five Circuits Have Held That Courts
Must Make Express, On-The-Record Findings
Notwithstanding A Defendant’s Agreement To
Exclude Time

The court below held that the parties’ stipulation,
coupled with the “surrounding context,” satisfied the
statutory requirement for judicial ends-of-justice findings. App.14a–17a. The Second, Ninth, Tenth, Eleventh,
and D.C. Circuits rightly have disagreed.
1. In United States v. Ammar, 842 F.3d 1203, 1209,
1212 (11th Cir. 2016), the district court excluded time
under the Speedy Trial Act based on the parties’ agreement to a continuance and denied the defendant’s subsequent motion to dismiss. The Eleventh Circuit held that
the district court had violated the Act and reversed the
defendant’s conviction, reasoning that “an agreement by
the parties does not eliminate the requirement that the
court make a proper ends-of-justice finding. Zedner
makes clear that the parties cannot waive the Speedy
Trial Act’s requirement. * * * The court must consider
both the defendant’s interest and the public’s interest in
a speedy trial.” Id. at 1211. The Eleventh Circuit explained that “[t]he district court did not comply with this
rule, as it based its decision to continue the case on the
parties’ agreement.” Id. The “[district] court’s finding
that a continuance [was] justified solely because the parties agreed to the continuance is not a proper ends-ofjustice finding.” Id. at 1210.
2. The Tenth Circuit similarly gave force to Zedner
in United States v. Toombs, 574 F.3d 1262 (2009). In
that case, the parties filed a series of unopposed continuance requests, each setting forth various grounds for delay. Id. at 1265–66. The district court granted the requests, simply reciting the statutory language that the
ends of justice outweighed the best interest of the public

15
and the defendant in a speedy trial. Id. The Tenth Circuit held that the district court’s orders did not comply
with § 3161(h)(7)’s requirements, emphasizing that the
Speedy Trial Act requires a district court to “make clear
on the record its reasons for granting an ends-of-justice
continuance.” Id. at 1269; see also id. at 1271–72 (“Simply identifying an event, and adding the conclusory statement that the event requires more time for counsel to
prepare, is not enough.”). The Tenth Circuit explained
that the district court is “no less responsible” to comply
with this requirement “merely because it is a defendant
who requests a continuance.” Id. at 1273 (citing Zedner,
547 U.S. at 493–95). “By failing to make a record upon
which adequate findings could be based, the district
court failed to protect the public’s interest in a speedy
trial.” Id. at 1273–74 (emphasis added).
3. The Second Circuit has also expressed the clear
view that the parties’ stipulation to exclude time cannot
substitute for the district court’s own findings. In Parisi
v. United States, 529 F.3d 134 (2008), the Second Circuit
considered a Speedy Trial Act issue in the context of an
ineffective assistance of counsel claim. There, the parties stipulated to exclude three separate time periods
from speedy trial computations and briefly explained in
each request why the continuance was necessary. Id. at
136–37. The first stipulation jointly requested a continuance “to allow defense counsel the opportunity to review
evidence which is in the possession of the United States,
to consider the charges herein, and to continue further
discussions regarding a change of plea for his client.” Id.
at 136. The second and third stipulations each requested
a continuance “to negotiate a disposition of the charges
against the defendant.” Id. at 136–37. Each stipulation
also stated that “the ends of justice to be served by the
granting of said continuance will outweigh the interest of
the public and of the defendant in a speedy trial.” Id. at

16
137. In all three instances, the district court approved
the parties’ stipulation with the notation “so-ordered.”
Id. at 136.
In a subsequent collateral attack on his conviction,
the defendant argued that the district court’s ends-ofjustice continuances were invalid and his counsel was ineffective for not moving to dismiss on that basis. The
Second Circuit ultimately rejected the ineffectiveness
claim under the deferential Strickland v. Washington,
466 U.S. 668 (1984), standard, noting that “Zedner, with
its reinforcement of the categorical nature of the endsof-justice requirement,” issued years after the defendant
pled guilty. Parisi, 529 F.3d at 141. However, the court
expressed grave concern that the stipulated continuances were inconsistent with Zedner. The court reasoned
that “the mere agreement of the Government and the defendant to the continuance does not satisfy the requirements of the Act * * *. The ends-of-justice determination
is * * * entrusted to the court, not the parties, and the
parties cannot stipulate to its satisfaction as a substitute
for the district court’s own finding to that effect.” Id. at
140; see also United States v. Culbertson, 598 F.3d 40, 47
(2d Cir. 2010) (“A prospective waiver of all rights under
the Speedy Trial Act is not acceptable, nor is a defendant’s acquiescence to a continuance sufficient compliance
with the Act for an ends-of-justice exclusion in the absence of specific findings.”) (citing Zedner, 547 U.S. at
501–03)). While dicta, the opinion’s substantial discussion reflects the Second Circuit’s authoritative interpretation of the Speedy Trial Act.
4. In enforcing the “procedural strictness” of
§ 3161(h)(7), several circuits have reaffirmed that the
Speedy Trial Act requires express, on-the-record findings, rejecting arguments that a reviewing court can at-

17
tempt to divine such “findings” based on the circumstances under which the continuance was granted.
For example, the D.C. Circuit held in United States
v. Bryant, 523 F.3d 349, 360 (2008), that “implicit” findings drawn from the record do not satisfy the Speedy
Trial Act. There, the parties agreed to accommodate
each other’s schedules in setting a trial date and the district court set trial based on those discussions. Id. The
district court did not make ends-of-justice findings. Id.
The D.C. Circuit held that failure to be a violation of the
Speedy Trial Act. “Zedner makes it plain that ‘implicit’
findings are insufficient to invoke the [ends-of-justice]
exclusion. The Zedner Court held that before a judge
could toll the speedy trial clock under § 3161(h)[7], the
judge had to make ‘express findings’ about why the ends
of justice were served by a continuance.” Id. at 360. The
D.C. Circuit found that the district court made “no express findings” supporting a continuance, noting that a
“passing reference” to the “interest of justice” was insufficient, as it “does not indicate that the judge seriously
considered the ‘certain factors’ that § 3161(h)[7] specifies.” Id. at 361 (quoting Zedner, 547 U.S. at 507). The
D.C. Circuit reversed the defendant’s conviction and remanded for a determination as to whether the dismissal
should be with or without prejudice. Id.
The Ninth Circuit took a similar approach in United
States v. Ramirez-Cortez, 213 F.3d 1149 (2000), under
circumstances strikingly similar to those presented here.
In that case, the defendant requested a continuance to
allow time for plea negotiations. Id. at 1152. The magistrate judge granted the continuance and the clerk filled
out a pre-printed sheet listing § 3161(h)(7) as the basis
for the exclusion of time. The district court later denied
the defendant’s motion to dismiss based on a Speedy
Trial Act violation, reasoning that although the magis-

18
trate did not specify reasons for the exclusion, the court
could infer the reasons from the record. Id. at 1153. The
Ninth Circuit reversed, holding that the magistrate
“failed to make any findings,” let alone considered “the
statutory factors underlying [its] conclusion” that time
should be excluded. Id. at 1154–55. The court further
made clear that the district court’s attempt to infer findings from the context surrounding the continuance was
improper. Id. at 1155; see also United States v. SierraPenaloza, 312 F. App’x 869, 870 (9th Cir. 2009) (“defendants’ stipulation to a continuance cannot satisfy the statutorily required findings of the Speedy Trial Act”).
B. Three Circuits Have Held That The Speedy Trial
Act Does Not Require Express Findings Where
The Parties Agree To A Continuance And The
Basis For The Continuance Can Be Inferred
From Context

By contrast, the Fourth and Seventh Circuits, joined
now by the Sixth Circuit, have failed to give effect to the
Speedy Trial Act’s requirement that the court make express findings, on the record, to support an ends-ofjustice continuance.
1. As noted by Judge Clay in dissent, the Sixth Circuit here paid lip service to Zedner, stating that
§ 3161(h)(7) requires a district court to “show its work”
before granting an ends-of-justice continuance, App.14a,
but then effectively creating an atextual exception to this
rule where the parties stipulate to exclude time and the
reasons for the continuance can be inferred from context. The majority held that the magistrate judge’s
“succinct and plain” order attaching the parties’ stipulation, together with the “surrounding context,” was “sufficient to support the continuance.” App.14a–17a; see also App.15a (“we’ve upheld a continuance when the reasons for it are clear from the context or record” (citing

19
United States v. Richardson, 681 F.3d 736, 741 (6th Cir.
2012)); App.16a (“An ends-of-justice continuance can be
found even when a delay is not designated as such by the
court.” (quoting United States v. Stone, 461 F. App’x 461,
466 (6th Cir. 2012)). The majority also distinguished
Zedner on the ground that it was limited to “wideranging and open-ended” delays, and did not apply to
time-limited continuances. See App.16a–17a.
2. Both before and after Zedner, the Seventh Circuit
has similarly held that express findings are not always
necessary. In the pre-Zedner case, United States v.
Baskin-Bey, 45 F.3d 200, 203 (1995), the district court
granted the defendant’s request to delay trial to preserve continuity of counsel and excluded the resulting
time under the Speedy Trial Act. The defendant later
challenged the exclusion on the basis that the court failed
to make sufficient ends-of-justice findings as required by
the Act. Id. The Seventh Circuit held that although the
district court made no express findings, there was no
Speedy Trial Act violation because “the reasons for the
exclusion are clear from the record—the judge acted in
the interests of justice to allow [the defendant] to keep
the same counsel.” Id.
The Seventh Circuit reaffirmed that approach after
Zedner. In United States v. Napadow, 596 F.3d 398
(2010), the district court asked counsel at a conference
whether they would be ready for trial by the scheduled
date. Counsel responded that they needed additional
time and the district court subsequently entered an order stating, “Enter excludable delay in the interest of
justice to begin 6/10/2008 and end 8/18/2008 pursuant to
18:3161(h)(8)(A)(B).” Id. at 400. In denying the defendant’s subsequent motion to dismiss for violation of the
Speedy Trial Act, the district court offered several reasons why it “probably” had excluded time. Id. at 405.

20
The Seventh Circuit held the district court had properly
excluded time under § 3161(h)(7), reasoning that “[w]hen
‘facts have been presented to the court and the court has
acted on them, it is not necessary to articulate those
same facts in a continuance order.’ ” Id. (quoting United
States v. Jean, 25 F.3d 588, 594 (7th Cir. 1994)). The
court concluded that the “sequence of events”—where
counsel told the district court that more time was needed
to prepare for trial, and the court granted the continuance—“makes it clear that the district court accepted
counsel’s representation that more time was needed”
and “sufficiently identified the applicable [§ 3161(h)(7)]
factor under the ends-of-justice exclusion.” Id.
3. The Fourth Circuit has taken the same approach.
In United States v. Odman, 47 F. App’x 221, 224–25
(2002), the court held that there was no Speedy Trial Act
violation “[a]lthough the record [did] not contain an order of the district court performing the required balancing at the time the continuance was granted” because the
reasons for the continuance were “clear from the record”
and “the defendant agreed to it.”
*****
The courts of appeals are intractably split on the interpretation of a law Congress explicitly enacted to “introduce a measure of uniformity” to criminal pretrial
practice. 120 Cong. Rec. 41,781 (1974). Only review by
this Court can ensure uniform compliance with Zedner’s
clear instructions.
II. The Decision Below Is Wrong

The Sixth Circuit’s holding that an order accepting a
stipulation is sufficient to satisfy the Act because the
reasons for the continuance were “clear from the context,” App.14a–17a, conflicts with the Speedy Trial Act’s
text and this Court’s precedent in two important respects.

21
1. First, the parties’ agreement to exclude time under
the Speedy Trial Act cannot substitute for the judge’s
own findings. “Congress unequivocally imposed the procedural requirements of § 3161(h)(7) on the district
court.” App.33a (Clay, J., concurring in part and dissenting in part). “The Speedy Trial Act is plain-speaking,”
United States v. Blackwell, 12 F.3d 44, 46 (5th Cir. 1994),
and the statutory text could not be clearer. The Act
states that whether the continuance is initiated by the
judge sua sponte or comes “at the request” of the parties, “[n]o * * * period of delay resulting from a continuance granted by the court * * * shall be excludable” unless “the court sets forth, in the record of the case, either
orally or in writing, its reasons for finding” that the ends
of justice are served by the continuance. § 3161(h)(7)(A)
(emphases added). The Sixth Circuit’s holding that a
district court need not make its own findings if it accepts
the parties’ stipulation to exclude time violates the “cardinal canon” of statutory construction that “courts must
presume that a legislature says in a statute what it
means and means in a statute what it says there.” Connecticut Nat’l Bank v. Germain, 503 U.S. 249, 253–54
(1992). Courts “are not free to rewrite the statute that
Congress has enacted,” no matter how much they may
disapprove of the result. Dodd v. United States, 545 U.S.
353, 359 (2005); accord Bloate, 559 U.S. at 210 (approach
to statutory construction that ignores statute’s plain text
is “not justified * * * by the prospect, however appealing,
of reaching a different result in this case”); Richards v.
United States, 369 U.S. 1, 10 (1962) (courts “are bound to
operate within the framework of the words chosen by
Congress and not to question the wisdom of the latter in
the process of construction”).
Were there any doubt that the statute means what it
says, this Court made clear in Zedner that “defense continuance requests,” by themselves, cannot support an ex-

22
clusion of time under the Speedy Trial Act. 547 U.S. at
500. “The ends-of-justice determination is * * * entrusted to the court, not the parties, and the parties cannot
stipulate to its satisfaction as a substitute for the district
court’s finding to that effect.” Parisi, 529 F.3d at 140;
see Ammar, 842 F.3d at 1211 (“an agreement by the parties does not eliminate the requirement that the court
make a proper ends-of-justice finding”); Toombs, 574
F.3d at 1273 (district court “no less responsible” to make
ends-of-justice findings “merely because it is a defendant
who requests a continuance”); Sierra-Penaloza, 312 F.
App’x at 870 (“defendants’ stipulation to a continuance
cannot satisfy the statutorily required findings of the
Speedy Trial Act”).
The rationale for requiring a court to make its own
independent evaluation of the § 3161(h)(7) factors is as
plain at the statutory text itself. “If the Act were designed solely to protect a defendant’s right to a speedy
trial, it would make sense to allow a defendant to waive
the application of the Act. But the Act was designed
with the public interest firmly in mind.” Zedner, 547
U.S. at 500–01. The public’s interests are not necessarily
vindicated by counsel for the various parties, requiring
the court to exercise its own reasoned judgment, on the
record, to ensure a valid rationale exists to deviate from
the Act’s otherwise-applicable timelines. As this Court
explained in Bloate, “[i]n considering any request for delay, * * * trial judges always have to devote time to assessing whether the reasons for the delay are justified,
given both the statutory and constitutional requirement
of speedy trials.” 559 U.S. at 214 (emphasis added).
Bloate and Zedner together make clear that the district
court must undertake a meaningful analysis, independent of the parties’ agreement, to determine whether the
exclusion satisfies the “ends-of-justice” requirements.

23
2. Second, the Speedy Trial Act’s “procedural strictness,” Zedner, 547 U.S. at 509, prohibits reviewing
courts from attempting to infer a district court’s or magistrate judge’s “findings” based on “the surrounding context.” App.16a. Zedner left no ambiguity: “[w]ithout
on-the-record findings, there can be no exclusion.”
Zedner, 547 U.S. at 507. “Zedner makes it plain that
‘implicit’ findings are insufficient to invoke the [ends-ofjustice] exclusion.” Bryant, 523 F.3d at 360; see, e.g.,
Ramirez-Cortez, 213 F.3d at 1154 (holding that magistrate judge’s reasons for granting continuance could not
be inferred from context, despite that form order was
entered on docket checking § 3161(h)(7) as basis for continuance).
This bright-line rule results from Congress’s recognition of the “danger that such continuances could get out
of hand and subvert the Act’s detailed scheme.” Zedner,
547 U.S. at 508–09. While “Congress clearly meant to
give district judges a measure of flexibility in accommodating unusual, complex, and difficult cases,” it constrained the district court’s discretion by imposing “limits” and “specific procedures” that must be followed to
exclude time. Id. at 499, 508. The magistrate judge did
not follow those procedures here and the Sixth Circuit
accordingly erred in affirming petitioner’s conviction.4
The posture of this case illustrates precisely why
Congress required express findings. The parties’ stipuTo be clear, petitioner is not arguing that a delay requested by
the parties to enable them to complete plea discussions is never
excludable under the ends-of-justice exception. Indeed, in many
cases, the interests of justice may be well served by allowing additional time for plea bargaining. But that is not the issue here. Rather, the question presented by this case is whether, irrespective
of the reason for the delay, the district court must follow the procedures clearly set out in § 3161(h)(7).
4

24
lation referenced both the automatic exclusion for plearelated delays, citing § 3161(h)(1), and the ends-ofjustice exception, citing § 3161(h)(7). App.36a. The magistrate judge’s order, however, cites neither provision,
instead referring only to “§ 3161” as a whole and finding
that “good cause” exists for an extension. App.37a.5 If
any inference were to be drawn from this “context,” it
would be that the magistrate judge did not make any
ends-of-justice findings because the judge did not rely on
the ends-of-justice exception at all, but on then-circuit
precedent that plea bargaining time was automatically
excludable. Because more than one inference can be
drawn from the same “context,” Congress required express, on-the-record, findings to ensure that meaningful
consideration is given to the important public and private
interests served by speedy trials. See Zedner, 547 U.S.
at 498–99.
Indeed, the Sixth Circuit has essentially applied
“harmless error” analysis to a district court’s failure to
make the required findings to justify an exclusion, substituting its own rationale—that plea negotiations serve
the “ends of justice”—for the absence of a determination
by the magistrate or the district court. See App.17a.
Yet, this Court has already foreclosed applying the
“harmless error” rule in this context. Zedner, 559 U.S.
at 508–09 (“Excusing the failure to make these findings
as harmless error would be inconsistent with the strategy embodied in § 3161(h). Such an approach would almost always lead to a finding of harmless error because
the simple failure to make a record of this sort is unlikely
to affect the defendant’s rights.”). The Sixth Circuit has
done indirectly what this Court has directly prohibited,
The Government has conceded that “‘good cause’ is a different
standard than in § 3161(h)(7).” Br. of United States at 51, United
States v. White, No. 16-1009 (6th Cir. Aug. 31, 2016).
5

25
finding the magistrate judge’s lack of findings essentially
“harmless” in light of the parties’ stipulation.
III. This Case Presents A Recurring Issue Of National
Importance

The Speedy Trial Act safeguards important policies
of the American criminal justice system. Congress carefully balanced the need for fixed time limits with narrowly tailored, judicially supervised exceptions. By ignoring
the Act’s plain language and excusing disregard for its
strict procedures, the decision below distorts that balance.
1. The Speedy Trial Act “protect[s] and promote[s]
speedy trial interests that go beyond the rights of the defendant.” Zedner, 547 U.S. at 501. It was “designed with
the public interest firmly in mind.” Id. Lengthy pretrial
delays reduce the “deterrent value resulting from punishment,” increase “the danger of recidivism,” and undermine “confidence in the fairness and administration
of criminal justice.” S. Rep. 212, 96th Cong., 1st Sess. 6
(1979); see also Zedner, 547 U.S. at 501 (identifying similar harms). The Act’s imposition of firm arrest-to-trial
deadlines reduces the risk of these societal harms and
promotes “the public interest in the swift administration
of justice.” Bloate, 559 U.S. at 211.
“[I]ntolerable delays” in our criminal justice system
threaten important interests. S. Rep. No. 212, 96th
Cong., 1st Sess. 8 (1979) (statement of William H.
Rehnquist, Assistant Attorney General, to the Committee on the Judiciary in 1971). The Speedy Trial Act thus
mandates “fixed time limits” within which the defendant
must be indicted and brought to trial. Id. at 9. Without
such limits, “the speedy trial protections afforded both
the individual and society by the Sixth Amendment [are]
largely meaningless.” Id.

26
Congress also recognized that some prosecutors
may “rely upon delay as a tactic in the trial of criminal
cases,” H.R. Rep. No. 1508, 93rd Cong. 7408 (1974), and
sought to counter such abuses through the Speedy Trial
Act. To the same end, the Act discourages the bringing
of hasty indictments. Because undue delay “could potentially result in the imposition of th[e] sanction [of dismissal of the indictment with prejudice], * * * the prosecution [has] a powerful incentive to be careful about compliance.” Zedner, 547 U.S. at 499.
2. As the Sixth Circuit recognized below, the plea
bargaining process plays a central role “in our modern
system of justice—‘it is not some adjunct to the criminal
justice system; it is the criminal justice system.”
App.13a (quoting Missouri v. Frye, 566 U.S. 134, 144
(2012)). “[C]riminal justice today is for the most part a
system of pleas, not a system of trials.” Lafler v. Cooper,
566 U.S. 156, 170 (2012); see also U.S. Dep’t of Justice,
Bureau of Justice Statistics, Plea and Charge Bargaining, Research Summary 1 (2011), https://goo.gl/SG4af3
(90 to 95 percent of convictions arise from guilty pleas).
Therefore, the issue presented in this case has the potential to arise in almost every federal criminal prosecution.
As a result, whether and under what conditions plea
bargaining time may be excluded under the Speedy Trial
Act carries substantial implications for the criminal justice system as a whole.
IV. This Case Presents An Ideal Vehicle To Resolve The
Circuit Split

This case presents a single question of federal law:
whether a district court may exclude time under
§ 3161(h)(7) of the Speedy Trial Act simply by accepting
the parties’ stipulation to a continuance without making
any on-the-record judicial findings that the ends of justice served by a continuance outweigh the interests of

27
the defendant and the public in a speedy trial or considering the factors that the Act requires judges to consider. Several circuits have weighed in on each side. This
case presents a procedurally clean vehicle to resolve the
circuit split. There is no dispute about the Court’s jurisdiction. And as it comes to the Court, this case involves
none of the factual disputes that often arise in calculating
excludable time. There is no dispute that the parties
were engaged in plea bargaining during the period in
question, nor is there a question about whether ends-ofjustice findings may have been made during conferences
that were not transcribed. The parties’ stipulation and
the magistrate judge’s order speak for themselves. The
Sixth Circuit squarely reached the issue presented after
briefing by the parties. Its judgment rests on no alternative ground. If petitioner prevails on the sole question
presented, the judgment below necessarily will be invalid.

28
CONCLUSION

The Court should grant the petition for a writ of certiorari.
Respectfully submitted.
JEREMY C. MARWELL
VINSON & ELKINS LLP
2200 Penn. Ave., NW
Suite 500 West
Washington, DC 20037
(202) 639-6507

KENNETH P. TABLEMAN
KENNETH P. TABLEMAN,
P.C.
161 Ottawa Ave., NW
Suite 404
Grand Rapids, MI 49503
(616) 233-0455

NOVEMBER 2019

JOHN P. ELWOOD
Counsel of Record
CRAIG D. MARGOLIS
R. STANTON JONES
CHRISTIAN D. SHEEHAN
ARNOLD & PORTER
KAYE SCHOLER LLP

601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
john.elwood@arnoldporter.com

APPENDIX

1a
APPENDIX A
RECOMMENDED FOR FULL-TEXT PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 19a0070p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
————
No. 16-1009
————
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
JIMMIE EUGENE WHITE, II,
Defendant-Appellant.
————
On Remand from the Supreme Court
of the United States.
United States District Court for the
Eastern District of Michigan at Detroit.
No. 2:13-cr-20423—David M. Lawson, District Judge.
————
Reargued: October 18, 2018
Decided and Filed: April 10, 2019
Before: GUY, CLAY, and GRIFFIN, Circuit Judges.
————

2a
COUNSEL
REARGUED: Christian D. Sheehan, VINSON &
ELKINS LLP, Washington, D.C., for Appellant. Andrew
Goetz, UNITED STATES ATTORNEY’S OFFICE,
Detroit, Michigan, for Appellee. ON SUPPLEMENTAL
BRIEF: Christian D. Sheehan, Jeremy C. Marwell,
VINSON & ELKINS LLP, Washington, D.C., Kenneth
P. Tableman, KENNETH P. TABLEMAN, P.C., Grand
Rapids, Michigan, for Appellant. Andrew Goetz,
UNITED STATES ATTORNEY’S OFFICE, Detroit,
Michigan, for Appellee.
GRIFFIN, J. delivered the opinion of the court
except with regard to the issue discussed in Section
III.B, and delivered a separate opinion with regard to
the issue discussed in Section III.B. GUY, J. (pp. 13–
14), delivered a separate opinion concurring in the
majority opinion and in the judgment. CLAY, J. (pp.
15–23), delivered a separate opinion concurring in the
majority opinion in part and dissenting in part.
OPINION
GRIFFIN, Circuit Judge.
Following our circuit’s binding precedent, we previously held in this case that preindictment plea negotiations are “period[s] of delay resulting from other
proceedings concerning the defendant” that are automatically excludable under 18 U.S.C. § 3161(h)(1) of
the Speedy Trial Act. United States v. White, 679 F.
App’x 426, 431 (6th Cir. 2017) (citing United States v.
Dunbar, 357 F.3d 582, 593 (6th Cir. 2004), vacated and
remanded on other grounds, 543 U.S. 1099 (2005);
United States v. Bowers, 834 F.2d 607, 609–10 (6th
Cir. 1987) (per curiam)). Defendant challenged this
precedent for the first time in his petition for a writ of
certiorari as inconsistent with the Supreme Court’s

3a
intervening decision in Bloate v. United States, 559
U.S. 196 (2010). Petition for Writ of Certiorari at 22–
23, White v. United States, 138 S. Ct. 641 (2018) (No.
17-270). The government then changed horses in
midstream, conceding—also for the first time before
the Supreme Court—that our circuit precedent was
incorrect and inconsistent with Bloate, and that the
roughly two-week continuance to engage in preindictment plea negotiations here did not qualify for automatic exclusion under § 3161(h)(1). Response to Petition for Writ of Certiorari at 8–11, White v. United
States, 138 S. Ct. 641 (2018) (No. 17-270). The Supreme
Court granted certiorari, vacated our judgment, and
remanded the case back to us “for further consider
ation in light of the confession of error by the Solicitor
General.” White v. United States, 138 S. Ct. 641, 641
(2018).
On remand, we now hold that Bloate abrogated
Dunbar and Bowers. Nevertheless, we deny defendant
relief for two independent reasons. First, he cannot
overcome plain-error review of his Bloate argument.
Second, and alternatively, the time for preindictment
plea negotiations was properly excluded as an ends-ofjustice continuance under § 3161(h)(7) of the Speedy
Trial Act. Therefore, we again affirm the judgment of
the district court.
I.
Our prior opinion sets forth the facts pertinent to
this remand:
On April 29, 2013, the government filed a
complaint against White charging him with
drug distribution and firearm crimes related
to the May 14, 2010, search and seizure.
White was arrested on those charges, and an

4a
order of temporary detention was entered, on
May 2, 2013. He made his initial appearance
the next day and was released on bond.
After his arrest, the parties engaged in preindictment plea negotiations. To that end, they
filed a stipulation with the district court on
May 17, 2013, agreeing to adjourn White’s
preliminary hearing and exclude the time
between May 23, 2013, and June 7, 2013,
from White’s Speedy Trial Act clock. Plea
negotiations were not successful, and a grand
jury indicted White on June 4, 2013.
White, 679 F. App’x at 429. Including those days expressly excluded by the court, thirty-three days passed
between White’s arrest and indictment.
While he filed a bevy of motions before the district
court, pertinent to our inquiry is only White’s pretrial
motion to dismiss the indictment because the government violated his speedy trial rights. Defendant’s motion simply announced that the government failed to
indict him within thirty days of his arrest in violation
of the Speedy Trial Act, 18 U.S.C. § 3161 et seq., but
substantively argued only his rights under the Speedy
Trial Clause of the Sixth Amendment to the Constitution, U.S. CONST. amend. VI. The district court held
a hearing on the motion to dismiss, denied it, a jury
convicted White of multiple crimes, and the district
court sentenced him to 84 months in prison. We
affirmed his conviction and sentence, rejecting his
claim the district court erred in denying his motion to
dismiss the indictment for violations of the Speedy
Trial Act and the Sixth Amendment’s Speedy Trial
Clause. See White, 679 F. App’x at 430–33. Following
remand from the Supreme Court, we give a fresh look
to this issue.

5a
II.
The Sixth Amendment provides that “[i]n all criminal prosecutions, the accused shall enjoy the right to
a speedy . . . trial.” U.S. CONST. amend. VI. The
Speedy Trial Act strengthens this constitutional
mandate by establishing time limits for completing the
various stages of a federal criminal prosecution. 18
U.S.C. §§ 3161–3174. Among these limits is an obligation that the government file an indictment within
thirty days of arresting a defendant, excepting the
time spent on certain events that can be automatically
excluded from that calculation and for other events if
sufficient reasons are given by the district court. 18
U.S.C. § 3161(b), (h). We typically review de novo the
district court’s interpretation of the Speedy Trial Act
and its factual findings for clear error. United States
v. Anderson, 695 F.3d 390, 396 (6th Cir. 2012). And
“[w]e review the district court’s decision to grant an
ends-of-justice continuance under an abuse-of-discretion
standard.” United States v. Williams, 753 F.3d 626,
635 (6th Cir. 2014).
The issue on remand is whether the fourteen days
spent on preindictment plea negotiations are excludable under that Act. White argues that our precedent
holding that preindictment plea negotiations are automatically excludable under § 3161(h)(1) no longer
passes muster after the Supreme Court’s Bloate decision. The government counters that this court should
affirm the district court because (1) White forfeited the
argument that Bloate precludes automatic exclusion
of preindictment plea negotiations and cannot show
plain error, and (2) even if preindictment plea
negotiations are not automatically excludable under
§ 3161(h)(1), that time was excludable as an ends-of-

6a
justice continuance pursuant to § 3161(h)(7). We address these arguments in turn.
III.
A.
We first hold that Bloate abrogated our prior decisions concluding that preindictment plea negotiations
are automatically excludable under the Act.
Section 3161(h)(1) provides for the automatic exclusion of “[a]ny period of delay resulting from other
proceedings concerning the defendant, including but
not limited to” eight enumerated subcategories. One of
those categories expressly excludes the time “resulting
from consideration by the court of a proposed plea
agreement to be entered into by the defendant and the
attorney for the Government.” § 3161(h)(1)(G). Based
primarily on that subparagraph and the “including
but not limited to” language, we have long held that
time spent on preindictment plea negotiations between the parties is automatically excludable.
Dunbar, 357 F.3d at 593; Bowers, 834 F.2d at 609–10.
And yet, in Bloate the Supreme Court held that the
time a court grants to a party to prepare pretrial
motions was not automatically excludable under
§ 3161(h)(1), notwithstanding § 3161(h)(1)(D)’s express
exclusion of the time attributable to “delay resulting
from any pretrial motion, from the filing of the motion
through the conclusion of the hearing on, or other
prompt disposition of, such motion.” 559 U.S. at 203–
07. The Court held that “because a specific provision .
. . controls one of more general application,” id. at 207
(cleaned up), Congress’s express language in subparagraph (h)(1)(D) communicates the decision to make
automatically excludable the time for pretrial motions
“only from the time a motion is filed through the

7a
hearing or disposition point specified in the subparagraph, and that other periods of pretrial motion-related delay are excludable only when accompanied by
district court findings,” id. at 206.
Given the above reasoning, the Solicitor General’s
concession of error in our precedent, and the Supreme
Court’s order vacating our prior decision and remanding for reconsideration in light of that concession of
error, we take this opportunity to revisit our prior
precedent. Although it is generally true that one panel
cannot overrule the binding precedent of a prior panel,
United States v. Ferguson, 868 F.3d 514, 515 (6th Cir.
2017), that rule yields when the prior panel’s reasoning has been undercut or abrogated by a decision of the
Supreme Court. See Ne. Ohio Coal. for the Homeless v.
Husted, 831 F.3d 686, 720–21 (6th Cir. 2016). And, as
we have held, such Supreme Court authority need not
be exactly on point, so long as the legal reasoning is
directly applicable to the issue at hand. Id. at 721; see
also Barr v. Lafon, 538 F.3d 554, 571 (6th Cir. 2008).
Just as the Supreme Court held that the time a
court grants to a party to prepare pretrial motions is
not automatically excludable, the same is true for
preindictment plea negotiations. The parties now
agree on this point. Subparagraph (h)(1)(G) expressly
excludes the time attributable to “delay resulting from
consideration by the court of a proposed plea agreement to be entered into by the defendant and the
attorney for the Government.” § 3161(h)(1)(G) (emphasis added). This specific provision caps the time to be
excluded as beginning at the moment the proposed
plea is given to the court for its consideration. Plea
negotiations, which necessarily occur before a proposed plea agreement comes to fruition, are therefore
outside the limited universe contemplated by this

8a
subparagraph and may not be automatically excluded.
See United States v. Mathurin, 690 F.3d 1236, 1241
(11th Cir. 2012) (“According to the Supreme Court,
when the category of delay at issue is ‘governed by’ one
of § 3161(h)(1)’s eight subparagraphs, a court must
look only to that subparagraph to see if the delay is
automatically excludable. In other words, the
‘including but not limited to’ clause of § 3161(h)(1) does
not modify the contents of the enumerated subcategories themselves.” (citations omitted)). Thus, applying
Bloate’s reasoning to this analogous subparagraph,
we now hold that (1) Bloate abrogated Dunbar and
Bowers, and (2) the time spent on preindictment plea
negotiations is not automatically excludable under
§ 3161(h)(1) of the Speedy Trial Act.
B.
This conclusion, however, does not end our consideration § 3161(h)(1)’s automatic exclusion in this appeal. The government, though accepting that Bloate
abrogated our precedent, now argues that White has
at a minimum forfeited the issue by not raising it
before the district court.11 I agree.

1

The government also argues waiver, which we need not address given our conclusion that White forfeited this issue. But
even if we were so inclined to address the argument, it is unlikely
that we could hold this issue completely waived in this context,
given the Supreme Court’s explicit direction that we “further
consider[]” this issue “in light of the confession of error by the
Solicitor General.” White, 138 S. Ct. at 641; see Clark v. Chrysler
Corp., 436 F.3d 594, 600 (6th Cir. 2006) (“[E]ven though Chrysler
initially waived its constitutional claim by failing to raise it in the
district court, our earlier decision and the Supreme Court’s GVR
order indicates that the issue has been preserved, and should be
considered further on remand”); Lawrence v. Chater, 516 U.S.
163, 168 (1996) (“GVR orders are premised on matters that [the

9a
Before the district court, White specifically challenged
the excludability of the fifteen-day delay for plea negotiations, and the validity of the stipulation. However,
he now presents a new reason why the district court
erroneously concluded that the plea-negotiation time
was excludable, arguing for the first time on appeal
that Bloate’s reasoning applied to remove preindictment plea negotiations from the automatic excludability provisions of § 3161(h)(1). This is insufficient to
preserve the issue for de novo review on appeal. See
United States v. Huntington Nat. Bank, 574 F.3d 329,
332 (6th Cir. 2009) (“To preserve the argument, then,
the litigant not only must identify the issue but also
must provide some minimal level of argumentation in
support of it.”); United States v. Seals, 450 F. App’x
769, 771 (10th Cir. 2011) (Gorsuch, J.) (declining to
review the defendant’s new Speedy Trial Act argument because “not only must the defendant seek
dismissal prior to trial, but he must do so for the
reasons he seeks to press on appeal”); see also United
States v. Loughrin, 710 F.3d 1111, 1121 (10th Cir.
2013) (citing Seals as “persuasive” and declining to
consider the defendant’s challenge on appeal to an
order of continuance he did not challenge in the district court). And generally, an appellant’s failure to
raise an argument in his appellate brief forfeits that
issue on appeal. Radvansky v. City of Olmstead Falls,
395 F.3d 291, 310–11 (6th Cir. 2005).
Although the Supreme Court’s remand order requires this court to “further consider[]” the Speedy
Trial Act issue, it does not similarly require us to
engage in de novo review or to grant White relief. Cf.
Supreme Court] . . . believe[s] the court below did not fully
consider, and . . . require only further consideration . . . .”
(emphasis added)).

10a
Bloate, 559 U.S. at 216 (Ginsburg, J., concurring)
(“[N]othing in the [Supreme Court’s] opinion bars the
[circuit court] from considering, on remand, the Government’s argument that the indictment, and convictions under it, remain effective”). As White himself
acknowledges, forfeiture of a specific Speedy Trial Act
claim of error can result in plain-error review, see, e.g.,
United States v. Montgomery, 395 F. App’x 177, 181
n.4, 184 n.7 (6th Cir. 2010), and we see no reason why
the Supreme Court’s remand order would require
otherwise. Thus, we are limited to plain-error consideration of the district court’s determination that the
preindictment plea-negotiation period was automatically excludable under § 3161(h)(1). See United States
v. Olano, 507 U.S. 725, 731 (1993) (“Federal Rule of
Criminal Procedure 52(b), which governs on appeal
from criminal proceedings, provides a court of appeals
a limited power to correct errors that were forfeited
because not timely raised in district court.”).
Plain error is, as it should be, a difficult hurdle to
clear. The burden is on White “to show (1) error that
(2) was plain, (3) affected [his] substantial rights, and
(4) seriously affected the fairness, integrity, or public
reputation of the judicial proceedings.” United States
v. Ushery, 785 F.3d 210, 218 (6th Cir. 2015); see also
Fed. R. Crim. P. 52(b). “An error is ‘plain’ when, at a
minimum, it ‘is clear under current law.’” United
States v. Al-Maliki, 787 F.3d 784, 794 (6th Cir. 2015)
(quoting Olano, 507 U.S. at 734).
We have noted that “[a] ‘circuit split precludes a
finding of plain error,’ for the split is good evidence
that the issue is ‘subject to reasonable dispute.’” Id.
(quoting United States v. Williams, 53 F.3d 769, 772
(6th Cir. 1995); Puckett v. United States, 556 U.S. 129,
135 (2009)). And we have also explained that “[a] lack

11a
of binding case law that answers the question presented will also preclude our finding of plain error.” Id.
Here, the district court could not have plainly erred
because we are in a realm beyond either a circuit split
or lack of binding caselaw—at the time of the district
court’s decision, the binding precedent of this circuit
held that the time for preindictment plea negotiations
was automatically excludable. See Dunbar, 357 F.3d
at 593; Bowers, 834 F.2d at 609–10.
Although we now overrule those decisions in light of
their abrogation by Bloate, the analysis supporting
that conclusion shows that we had to extend Bloate’s
reasoning to an analogous, but different, section of the
Speedy Trial Act. See, supra, Section III.A. Our decision today shows that it took no great inferential leap
to apply Bloate in this instance, but it still required
both an extension of Bloate’s reasoning and the overruling of two of our published decisions. We cannot
fault a district court for following our binding caselaw,
as it was required to do. Cf. Rodriguez de Quijas v.
Shearson/Am. Express, Inc., 490 U.S. 477, 484 (1989)
(“If a precedent of this Court has direct application in
a case, yet appears to rest on reasons rejected in some
other line of decisions, the [lower courts] should follow
the case which directly controls, leaving to this Court
the prerogative of overruling its own decisions.”).
Thus, White cannot show that the district court committed plain error in denying his motion to dismiss on
Speedy Trial Act grounds.
IV.
Finally, we turn to the government’s alternate argument—that the district court’s order granting the parties’ stipulation to exclude the preindictment-pleanegotiation period from Speedy Trial Act calculations
satisfied the requirements for an ends-of-justice con-

12a
tinuance under the Act. We agree and hold this to be
adequate alternative grounds for affirmance.
Regardless of whether a period of time is automatically excludable, the Speedy Trial Act allows for a
continuance whenever the judge finds “that the ends
of justice served by taking such action outweigh the
best interest of the public and the defendant in a
speedy trial.” 18 U.S.C. § 3161(h)(7)(A). This is a common ground for excluding time and the Supreme Court
has noted that ends-of-justice continuances furnish
“[m]uch of the Act’s flexibility.” Zedner v. United
States, 547 U.S. 489, 498 (2006).
To exclude time under this exception, the court must
consider certain factors, such as whether the failure to
grant the continuance would “result in a miscarriage
of justice,” § 3161(h)(7)(B)(i); whether due to the nature of the case (or other factors), the case is too
complex to reasonably expect adequate preparation
within the Act’s time limits, § 3161(h)(7)(B)(ii);
or whether a refusal to continue the case would deny
the defendant “reasonable time to obtain counsel,” or
would unreasonably deny either party time for
“effective preparation,” § 3161(h)(7)(B)(iv). Notably,
the list of enumerated factors is not exhaustive,
§ 3161(h)(7)(B) (“The factors, among others, which a
judge shall consider . . . .” (emphasis added)), but
preindictment plea negotiations are not expressly
included. See § 3161(h)(7)(B)(i)– (iv).
The Supreme Court has held that other types of
delay that are not excludable under subsection (h)(1)
are excludable under the more flexible framework of
subsection (h)(7). See Bloate, 559 U.S. at 214 (holding
that the time spent to prepare pretrial motions, while
not excludable under subsection (h)(1), is excludable
under subsection (h)(7)). And a number of our sister

13a
circuits have concluded that time spent negotiating preindictment plea agreements can be excluded
under subsection (h)(7)’s ends-of-justice exclusion. See
Mathurin, 690 F.3d at 1241–42; United States v.
Fields, 39 F.3d 439, 445 (3d Cir. 1994) (Alito, J.);
United States v. Williams, 12 F.3d 452, 460 (5th Cir.
1994), abrogated on other grounds by United States v.
Wells, 519 U.S. 482, 492 (1997). We agree, and hold
that the time spent on preindictment plea negotiations
may be excludable under subsection (h)(7).2 A conclusion to the contrary would pervert the Speedy Trial
Act and ignore the central importance that the plea
bargaining process has in our modern system of
criminal justice—“[i]t is not some adjunct to the
criminal justice system; it is the criminal justice
system.” Missouri v. Frye, 566 U.S. 134, 144 (2012)
(internal quotation marks omitted); see also Lafler v.
Cooper, 566 U.S. 156, 170 (2012) (“[C]riminal justice
today is for the most part a system of pleas, not a
system of trials.”).
Therefore, because the time spent on pretrial plea
negotiations may be excludable under subsection (h)(7),
we must determine whether the magistrate judge’s
order provided sufficient explanation for the continu2

This conclusion does not suffer from the same defect that our
prior caselaw on automatic exclusions did– there is no subpart of
§ 3161(h)(7) that speaks narrowly to plea agreements or plea
negotiations, so we are not foreclosed from permitting plea negotiations as a reasonable basis for an ends-of-justice continuance.
Cf. Bloate, 559 U.S. at 208–09 (holding that though “the list of
categories [in § 3161(h)(1)] is illustrative rather than exhaustive
in no way undermines our conclusion that a delay that falls
within the category of delay addressed by [a] subparagraph . . . is
governed by the limits in that subparagraph”). Because none of
the subparagraphs of § 3161(h)(7) address pleas at all, we are not
similarly constrained here.

14a
ance, as required by the Act. Subsection 3161(h)(7) requires a district court to “show its work,” before granting an ends-of-justice continuance:
No such period of delay resulting from a
continuance granted by the court in accordance with this paragraph shall be excludable
under this subsection unless the court sets
forth, in the record of the case, either orally or
in writing, its reasons for finding that the
ends of justice served by the granting of such
continuance outweigh the best interests of the
public and the defendant in a speedy trial.
Id. “[T]he Act requires express findings” when granting an ends-of-justice continuance, and “without onthe-record findings, there can be no exclusion” pursuant to § 3161(h)(7). See Zedner, 547 U.S. at 506–07.3
The public interest in a speedy trial is also protected
by the Act, so a defendant’s agreement to waive its
protections cannot, by itself, justify an ends-of-justice
continuance. See id. at 500–01 (finding that a defendant cannot prospectively waive or “opt out of the Act”
meant to balance the defendant’s and the government’s interests against those of the public); see also
Bloate, 559 U.S. at 211–12 (noting that a defendant
may not opt out of the Act even if he believes it would
be in his interest because the Act also “vindicate[s] the
public interest in the swift administration of justice”).
Given its unique structure and appearance, it is important to discuss exactly what the combined stipula3

The Zedner Court, interpreting an older version of the Act,
refers to the pertinent section as § 3161(h)(8). In a 2008
amendment, this subsection was redesignated as (h)(7). Pub. L.
No. 110–406 § 13(3) (2008). The text and substance of the
statutory subsection did not change.

15a
tion and order granting the continuance said in this
case. The first two pages of the court’s filed order was
nothing more than the parties’ stipulation. There, the
parties provided that “the period from May 23, 2013,
to June 7, 2013, should be excluded from computing
the time within which an information or indictment
must be filed because the parties are engaged in plea
negotiations, 18 U.S.C. § 3161(h)(1), and because the
ends of justice served by such continuance outweigh
the interests of the public and the defendant in a
speedy trial. See 18 U.S.C. § 3161(h)(7).” The third
page of the court’s order began by noting that the
“matter [came] before the court on the stipulation of
the parties” and provided, simply, that “the period
from May 23, 2013, to the new date of the preliminary
hearing, June 7, 2013, should be excluded in calculating the time within which the defendant shall be
indicted under the Speedy Trial Act. 18 U.S.C. § 3161.”
This order sufficiently supports an ends-of-justice
exclusion under § 3161(h)(7). First, the order clearly
incorporates the parties’ two-page stipulation, both by
attachment and reference. In the past we’ve upheld a
continuance when the reasons for it are clear from the
context or record. United States v. Richardson, 681
F.3d 736, 741 (6th Cir. 2012) (“[G]iven the context, the
record clearly establishes that a continuance serves
the ends of justice.”). That the magistrate attached the
parties’ stipulation to its order only bolsters the conclusion that the parties’ proposed justifications for the
continuance found their way into the magistrate’s
determination. Thus, we agree with the district court
and the government that the magistrate adopted the
parties’ stipulation as part of its own reasoning in
support of the roughly two-week continuance.

16a
Second, the contents of the order are sufficient to
support the continuance. We have previously affirmed
a district court’s ends-of-justice continuance when it
simply held that “the ends of justice served outweigh
the best interest of the public and the defendant in a
speedy trial.” Anderson, 695 F.3d at 397. Given the
context surrounding the issue in Anderson—the judge
was considering a motion to suppress for some, but not
all, of the period for which the continuance was
granted—this court held that the defendant’s challenge to the district court’s ends-of-justice continuance
was meritless. Id. at 397–98. In a similar vein, here,
the magistrate’s order and the surrounding context
support the continuance. As noted above, time for
preindictment plea negotiations may be excluded
under subsection (h)(7) as a valid ends-of-justice exception to the Act’s strict deadlines. Given the relatively short continuance requested—only approximately two weeks’ time—the magistrate did not err in
concluding that the parties’ efforts to come to a mutually agreeable plea agreement “outweigh[ed] the best
interest of the public and the defendant in a speedy
trial.” § 3161(h)(7)(A). And the fact that the magistrate’s order did not explicitly say “ends of justice”
poses no alternate barrier to this conclusion. “An endsof-justice continuance can be found even when a delay
is not designated as such by the court.” United States
v. Stone, 461 F. App’x 461, 466 (6th Cir. 2012) (citing
United States v. Spring, 80 F.3d 1450, 1457 (10th Cir.
1996)). The Act does not require such “magic words.”
United States v. Breen, 243 F.3d 591, 597 (2d Cir.
2001).
Finally, despite White’s arguments to the contrary,
this case is distinguishable from Zedner because it
does not present the sort of wide-ranging and openended error that the Zedner Court sought to remedy.

17a
There, the Court was faced with an open-ended stipulation, which prevented the defendant from raising
any Speedy Trial Act issues “for all time.” Zedner, 547
U.S. at 494. This universal Speedy Trial Act waiver
ultimately led to over seven years passing from the
defendant’s indictment to his trial. Id. at 496. Unlike
the “waiver for all time” and for all reasons in Zedner,
id. at 493–94, here the magistrate accepted a mere
two-week exclusion of time for the express purpose of
preindictment plea negotiations.
Sure, an order more fully explaining the magistrate’s reasoning would have been well taken by this
court, but we cannot forget that the Act does not require a novella of explanation. See Anderson, 695 F.3d
at 397. The magistrate’s succinct and plain statement
here, when combined with the parties’ attached stipulation, granted a short and definite continuance (approximately two weeks), for a permissible reason (preindictment plea negotiations), after expressly considering the
three-pronged interests relevant to the Act (the interests of defendant, the government, and the public). In
short, we cannot, under these facts and given the surrounding context, find that the magistrate judge
abused his discretion in granting an ends-of-justice
continuance. Williams, 753 F.3d at 635.
V.
We affirm the judgment of the district court.

18a
CONCURRING IN PART AND IN THE JUDGMENT
RALPH B. GUY, JR., Circuit Judge. I concur in
the judgment and concur with Judge Griffin’s opinion,
except as to part III.B. In my view, White did not
forfeit his argument about 18 U.S.C. § 3161(h)(1)
because I fail to see when he was required to raise the
argument.
Consider the order of events. Fourteen days after
White was arrested, his court-appointed attorney
signed the stipulation at issue in this case. The magistrate judge entered the order the next day. A few
weeks later, White filed a pro se motion to dismiss the
indictment due to a Speedy Trial Act violation and also
moved for a new attorney. The court allowed White to
hire a new attorney, denied the pro se motion without
prejudice, and invited the new attorney to file a new
motion. The new attorney did file a new motion under
the Speedy Trial Act and the government filed a
response. White declined to file a reply. The court held
a hearing and ultimately denied the motion in a
written order.
Then consider the content of the briefs. The pro
se motion simply pointed out § 3161(b)’s 30-day
deadline, while making no reference to the stipulation
or the order finding excludable delay. The subsequent
attorney-drafted motion was more specific, but it observed only that 33 calendar days elapsed and concluded
that there was necessarily a violation of § 3161(b). It
too failed to mention the stipulation and order. The
government finally brought up the order in its
response brief, but with little elaboration. The government merely observed that “the parties agreed, and
the court ordered, that the period of delay from May
23, 2013, through June 4, 2013 (in fact June 7, 2013)
was excludable delay under the [Speedy Trial Act].” It

19a
did not, however, identify how the Speedy Trial Act
enabled this exclusion—whether through § 3161(h)(1),
(h)(7), or some other means. In all, no brief mentioned
automatic exclusion or § 3161(h)(1).
Automatic exclusion never came up at the hearing
either. The government never mentioned it and argument about the Speedy Trial Act focused exclusively
on the validity of the stipulation. White’s new attorney
recounted how the old attorney had signed the stipulation and explained:
If that extension is effective to the Defendant,
then that would be credited against him; the
issue would be moot, he would lose. His claim
is that he did not agree to that, had no
knowledge of it, that that extension was
taking place. . . . Our argument is very simple:
He didn’t agree to it.
Ultimately, the district court found that the stipulation was valid and that finding has never been at issue
on appeal.
White did not raise the automatic-exclusion issue,
but it was not his issue to raise. White did what the
Speedy Trial Act requires: he provided proof of a
violation (a list of the dates) and moved for dismissal.
See 18 U.S.C. § 3162(a)(1). The government was then
required to prove, by a preponderance of the evidence,
that sufficient time was excluded. See United States v.
Jenkins, 92 F.3d 430, 438 (6th Cir. 1996). It did so by
merely pointing to the magistrate judge’s order. Notably, though, § 3161(h)(1)—when it does apply—does
not require a judicial finding; it is automatic. See
Bloate v. United States, 559 U.S. 196, 203 (2010);
Henderson v. United States, 476 U.S. 321, 327, 332
(1986). If the government had argued that even

20a
without the order, the time was automatically
excluded under § 3161(h)(1), it would have behooved
White to raise a Bloate-based challenge in a reply
brief—but the government did not raise that argument. White therefore had no obligation to argue why
the unmentioned provision did not apply to him.
Ultimately, the waiver of the § 3161(h)(1) argument—whether by White or the government—is
inconsequential. All now agree that under Bloate,
§ 3161(h)(1) does not apply here, which leaves us with
the matter actually considered and relied upon by the
district court: exclusion under § 3161(h)(7). I agree
that under the circumstances the magistrate judge’s
order, which was explicitly premised on the parties’
stipulation, satisfied the requirement of an on-therecord finding for an ends-of-justice continuance. I
therefore concur in the judgment.

21a
CONCURRING IN PART AND
DISSENTING IN PART
CLAY, Circuit Judge, concurring in part and
dissenting in part. This case comes before us pursuant
to a grant, vacate, and remand order (“GVW”) from the
Supreme Court. All that remains at issue is whether
the district court properly excluded a period of two
weeks when determining whether Defendant was
indicted more than thirty days after his arrest, in
violation of the Speedy Trial Act, 18 U.S.C. § 3161(b).
During that two-week period, Defendant was engaged
in plea negotiations with the government. The majority holds (1) that time spent in plea negotiations is not
automatically excludable under 18 U.S.C. § 3161(h)(1),
and (2) that Defendant nevertheless is not entitled to
relief either because he forfeited that argument, or,
alternatively, because his time spent in plea negotiations was properly excluded under 18 U.S.C. § 3161(h)(7).
I concur in the majority’s first holding, set out in
Section III.A. However, I respectfully dissent from the
majority’s second holding because the majority’s reasoning is inconsistent with Supreme Court and Sixth
Circuit precedent.
I. Background
The relevant facts are straightforward. On May 14,
2010, federal law enforcement agents executed a search
warrant at Defendant’s home and found drugs and a
firearm. See United States v. White, 679 F. App’x 426,
428–30 (6th Cir. 2017). On April 29, 2013, the government filed a criminal complaint against Defendant in
connection with that search. Id. And on May 2, 2013,
Defendant was arrested in connection with that complaint. Id.

22a
After his arrest, Defendant engaged in plea negotiations with the government. Id. To that end, on May
16, 2013, Defendant and the government filed a joint
stipulation with the district court, stating in part that:
[T]he period from May 23, 2013 to June 7,
2013, should be excluded from computing the
time within which an information or indictment must be filed because the parties are
engaged in plea negotiations, 18 U.S.C.
§ 3161(h)(1), and because the ends of justice
served by such continuance outweigh the
interests of the public and the defendant in a
speedy trial. See 18 U.S.C. § 3161(h)(7).
(RE 12, PageID # 30–31.) On May 17, 2013, a
magistrate judge issued an order stating in part that:
This matter coming before the court on the
stipulation of the parties, it is hereby . . .
ORDERED that the period from May 23,
2013, to the new date of the preliminary hearing, June 7, 2013 should be excluded in calculating the time within which the defendant
shall be indicted under the Speedy Trial Act.
18 U.S.C. § 3161.
(Id. at PageID # 32.) And on June 4, 2013, Defendant
was indicted for various drug and firearm offenses, of
which he was later convicted. White, 679 F. App’x at
428–30.
The relevant procedural history is less straightforward, but no less significant. As his case progressed,
Defendant filed a motion to dismiss the indictment,
alleging that the government had indicted him more
than thirty days after his arrest, in violation of the
Speedy Trial Act, 18 U.S.C. § 3161(b). In response, the
government argued that Defendant had agreed that

23a
the time Defendant spent in plea negotiations would
be excluded, and that taking that excluded time into
account, Defendant was permissibly indicted twenty
days after his arrest. The district court agreed with the
government and denied Defendant’s motion, reasoning that the time Defendant spent in plea negotiations
was excludable under 18 U.S.C. § 3161(h)(7) because
Defendant and the government “agreed that the time
period should be [excluded].” (RE 42, PageID # 143–
44.)
Defendant appealed, arguing that neither the magistrate judge nor the district court had made the statutorily mandated findings necessary to exclude the time
Defendant spent in plea negotiations under § 3161(h)(7).
In response, the government argued both that the
magistrate judge and the district court had made the
statutorily mandated findings, and, for the first time,
that Defendant’s time spent in plea negotiations
was also automatically excludable under 18 U.S.C.
§ 3161(h)(1). In reply, Defendant addressed the government’s new argument, countering that “section
3161(h)(1) only mentions the exclusion of time for the
district court to consider a plea agreement. It says
nothing about plea negotiations. . . [and] it is consistent with the purposes of the [Speedy Trial] Act to
interpret the exclusion of delay due to ‘other
proceedings’ in section (h)(1) to apply only to other
proceedings like those described in the section.”
(Initial Reply Brief for Appellant at 2–3) (emphasis
added). We agreed with the government’s new argument and affirmed the denial of Defendant’s motion,
reasoning that time spent in plea negotiations is
“automatically excludable under § 3161(h)(1)” because
“[a]lthough the plea bargaining process is not expressly specified in § 3161(h)(1)[’s] [subparagraphs], the
listed proceedings are only examples . . . and are not

24a
intended to be exclusive.” White, 679 F. App’x at 430–
31.
Defendant filed a petition for certiorari with the
Supreme Court. In his petition, Defendant maintained
that time spent in plea negotiations is not automatically excludable under § 3161(h)(1), and cited the
Supreme Court’s decision in Bloate v. United States,
559 U.S. 196 (2010). The government then abandoned
the position it had taken before this Court on direct
appeal, and agreed with Defendant. Accordingly, the
Supreme Court issued a GVR directing us to further
consider this case in light of the government’s confession of error. On remand, Defendant continues to
argue that time spent in plea negotiations is not automatically excludable under § 3161(h)(1) pursuant to
Bloate. The government continues to agree, but now
argues that Defendant is nevertheless not entitled to
relief because he waived and forfeited that argument,
or, alternatively, because his time spent in plea
negotiations was properly excluded under § 3161(h)(7).
II. 18 U.S.C. § 3161(h)(1)1
I concur in the majority’s holding that time spent in
plea negotiations is not automatically excludable under
18 U.S.C. § 3161(h)(1). The Supreme Court’s decision in
Bloate abrogated this Court’s contrary decisions in
United States v. Dunbar, 357 F.3d 582 (6th Cir. 2004)

1

18 U.S.C. § 3161(h)(1) provides, in relevant part: “The following periods of delay shall be excluded in computing the time
within which an information or an indictment must be filed[:] . . .
Any period of delay resulting from other proceedings concerning
the defendant, including but not limited to . . . delay resulting
from consideration by the court of a proposed plea agreement to
be entered into by the defendant and the attorney for the Government.”

25a
and United States v. Bowers, 834 F.2d 607 (6th Cir.
1987).
III. Forfeiture
Judge Griffin, writing for himself, holds that
Defendant is not entitled to relief because he forfeited
his § 3161(h)(1) argument by failing to make it before
the district court or in his initial opening brief to this
Court, and that as a result, we are limited to plain
error review. For several reasons, this holding is
unpersuasive.
First, it is the government that forfeited its
§ 3161(h)(1) argument by failing to make it before the
district court. This Court has held that once a defendant makes a “prima facie” showing of a violation—“a
simple matter of producing a calendar” and showing
that more than the allowed amount of time has passed,
United States v. Sherer, 770 F.3d 407, 411 (6th Cir.
2014)—“the government bears the burden of proving
sufficient excludable time by a preponderance of the
evidence.” United States v. Sobh, 571 F.3d 600, 602
(6th Cir. 2009); see also United States v. Gardner, 488
F.3d 700, 717 (6th Cir. 2007). Yet, faced with
Defendant’s showing that he was indicted more than
thirty days after his arrest, the government never
argued that the time Defendant spent in plea negotiations was automatically excludable under § 3161(h)(1).
And the United States, like all litigants, forfeits
arguments not raised before the district court. Cradler
v. United States, 891 F.3d 659, 666 (6th Cir. 2018). I
concur with Judge Guy’s opinion on this point. See
Con. Op. at 14 (“White did not raise the automaticexclusion issue, but it was not his issue to raise.”).
Second, and relatedly, even if the government did
not bear the burden of proving sufficient excludable

26a
time, because neither party argued that the time
Defendant spent in plea negotiations was automatically excludable under § 3161(h)(1), the district court
did not address or analyze § 3161(h)(1) in its denial of
Defendant’s motion. Rather, the district court addressed and analyzed only § 3161(h)(7).2 Accordingly,
when the government made its § 3161(h)(1) argument
on appeal, it was as an alternative basis for affirmance. And this Court has held that in such situations, the appellant forfeits its argument in response
only if it fails to make that argument in its reply brief.
See Innovation Ventures, LLC v. N.V.E., Inc., 694 F.3d
723, 729 (6th Cir. 2012) (“[The appellant] would not
have been on notice that it needed to address in its
2

Though the district court’s written denial of Defendant’s motion cited neither § 3161(h)(1) nor § 3161(h)(7), the district court’s
statements at the hearing on Defendant’s motion demonstrate
that it denied Defendant’s motion pursuant to § 3161(h)(7). The
district court reasoned that the joint stipulation stated that “the
ends of justice served by the continuance outweigh the interest of
the public and the Defendant in a speedy trial, which [are] the
magic words . . . that we’re familiar with.” (RE 88, PageID # 624.)
The district court also reasoned that “[t]he [magistrate judge’s]
order was based in some measure on [the] stipulation, but [was]
also based on the independent finding of a judicial officer, as it
must be under the Speedy Trial Act. . . . The magistrate judge
made a finding and I can rely on that. . . . So that’s my ruling on
that.” (Id. at PageID # 631–33.) Such magic words and independent findings are relevant only to § 3161(h)(7). Compare United
States v. Brown, 819 F.3d 800, 822 (6th Cir. 2016) (“[I]n order to
grant an ends of justice continuance based on the considerations
articulated under [§ 3161(h)(7)], the district court was required
to set forth on-the-record findings, orally or in writing, that the
ends of justice served by the continuance outweighed the interests of [the defendant] and society in a speedy trial.”) with United
States v. Robinson, 887 F.2d 651, 656 (6th Cir. 1989) (“The exclusion is automatic if it falls within one of the [§ 3161(h)(1)] exceptions.”).

27a
initial brief an issue not even discussed by the district
court. Consequently, there is no [forfeiture], and we
find that [the appellant] properly responded [in its
reply brief] to the alternative basis for affirmance
raised on appeal . . . .”); see also Golden Living CenterFrankfort v. Sec’y of Health & Human Servs., 656 F.3d
421, 42 (6th Cir. 2011). In his initial reply brief,
Defendant properly responded to the government’s
argument, countering that “section 3161(h)(1) only
mentions the exclusion of time for the district court to
consider a plea agreement. It says nothing about plea
negotiations. . . [and] it is consistent with the purposes
of the [Speedy Trial] Act to interpret the exclusion of
delay due to ‘other proceedings’ in section (h)(1) to
apply only to other proceedings like those described in
the section.” (Initial Reply Brief for Appellant at 2–3)
(emphasis added).3
Third, even if Defendant did forfeit his § 3161(h)(1)
argument, that forfeiture was cured by subsequent
proceedings in this Court and the Supreme Court. This
Court’s decision in Clark v. Chrysler Corp., 436 F.3d
594 (6th Cir. 2006) is instructive.4 In Clark, the
3

Accord Maj. Op. at 5 (“Subparagraph (h)(1)(G) expressly excludes the time attributable to ‘delay resulting from consideration
by the court of a proposed plea agreement to be entered into by
the defendant and the attorney for the government.’ . . . Plea
negotiations, which necessarily occur before a proposed plea
agreement comes to fruition, are therefore outside the limited
universe contemplated by this subparagraph and may not be
automatically excluded.”).
4

Judge Griffin, writing for himself, acknowledges the persuasiveness of Clark, but erroneously limits its discussion of Clark
to its analysis of waiver. “The terms waiver and forfeiture—
though often used interchangeably by jurists and litigants—
are not synonymous.” Hamer v. Neighborhood Hous. Servs. of
Chicago, 138 S. Ct. 13, 17 n.1 (2017). “Whereas forfeiture is the

28a
defendant failed to argue before the district court that
the verdict against it was unconstitutionally excessive. 436 F.3d at 599. Accordingly, Chrysler forfeited
that argument. Yet despite that forfeiture, this Court
addressed the issue on appeal and held that the ver
dict was not unconstitutionally excessive. Id. Chrysler
appealed, and the Supreme Court issued a GVR,
instructing this Court to reconsider the case in light of
State Farm Mut. Auto. Ins. Co. v. Campbell, 538 U.S.
408 (2003). Id. On remand, this Court held that its
addressing the issue on direct appeal—despite the
forfeiture—preserved the issue for Supreme Court
review, and that the Supreme Court’s GVR— despite
the forfeiture—preserved the issue for reconsideration. Id. at 599–600. “[E]ven though [t]he defendant
initially [forfeited] [its] challenge by failing to raise it
failure to make the timely assertion of a right, waiver is the
intentional relinquishment or abandonment of a known right.”
United States v. Olano, 57 U.S. 725, 733 (1993); see also Lucaj v.
Fed. Bureau of Investigation, 852 F.3d 541, 547 n.4 (6th Cir.
2017). Accordingly, a defendant waives an argument by, for instance, withdrawing a motion or objection, see United States v.
Collins, 683 F.3d 697, 701 (6th Cir. 2012), stating that a proposition is not disputed, see United States v. Walker, 615 F.3d 728,
733 (6th Cir. 2010), or stating that they are not pressing an
argument. See United States v. Tasis, 696 F.3d 623, 625–26 (6th
Cir. 2012). In contrast, a defendant forfeits an argument by, for
instance, failing to make it before the district court, see Pittman
v. Experian Information Sols, Inc., 901 F.3d 619, 630 n.6 (6th Cir.
2018), failing to make it in its opening appellate brief, see Automated Sols. Corp. v. Paragon Data Sys., Inc., 756 F.3d 504, 521–
22 (6th Cir. 2014), or identifying it without pressing it. See Jones
Bros., Inc. v. Sec’y of Labor, 898 F.3d 669, 677 (6th Cir. 2018).
Significantly, in Clark, the defendant failed to raise the argument
at issue in its post-trial motions before the district court. 436 F.3d
at 598. Thus, while this Court used the term “waiver,” it was more
accurately referring to forfeiture, see Pittman, 901 F.3d at 630
n.6, and as a result, Clark is applicable to this forfeiture analysis.

29a
in its post-trial motions before the district court,
subsequent proceedings in the Sixth Circuit and the
Supreme Court preserved the issue for review.” Id. at
598.
The same is true in this case. Defendant allegedly
forfeited his § 3161(h)(1) argument by not making it
before the district court. Yet despite that alleged forfeiture, this Court addressed the issue on appeal and
held that that time spent in plea negotiations is
“automatically excludable under § 3161(h)(1)” because
“[a]lthough the plea bargaining process is not
expressly specified in § 3161(h)(1)[’s] [subparagraphs],
the listed proceedings are only examples . . . and are
not intended to be exclusive.” White, 679 F. App’x at
430–31. Defendant appealed, and the Supreme Court
issued a GVR in light of the government’s confession
of error. Thus, as in Clark, subsequent proceedings
before this Court and before the Supreme Court cured
Defendant’s forfeiture. See Stutson v. United States,
516 U.S. 193, 197 (1996) (“[A] GVR order promotes
fairness and respects the dignity of the Court of
Appeals by enabling it to consider potentially relevant
decisions and arguments that were not previously
before it.”).5
5

Judge Griffin’s holding on this issue eliminated any need for
him to address waiver. However, because I disagree with that
holding, I address waiver as well. The government argues that
Defendant waived his § 3161(h)(1) argument pursuant to 18
U.S.C. § 3162(a), which provides that “[f]ailure of the defendant
to move for dismissal prior to trial or entry of a plea of guilty or
nolo contendere shall constitute a waiver of the right to dismissal
under this section.” This argument is unpersuasive, as this Court
has held that § 3162(a) is satisfied “so long as the defendant
brings to the court’s attention his belief that his [Speedy Trial
Act] rights have been violated.” Brown, 819 F.3d at 823. In this
case, Defendant filed a motion to dismiss the indictment, alleging

30a
IV. 18 U.S.C. § 3161(h)(7)6
The majority holds that the magistrate judge and
the district court made the statutorily mandated
findings necessary to exclude Defendant’s time spent
in plea negotiations under 18 U.S.C. § 3161(h)(7). This
holding is also unpersuasive.
By its terms, 18 U.S.C. § 3161(h)(7)(A) permits a
court to exclude a period of time by granting an endsof-justice continuance only if “the judge granted such
continuance on the basis of his findings that the ends
of justice served by taking such action outweigh the
best interest of the public and the defendant in a
speedy trial.” The provision explains that “no such
period of delay resulting from a continuance granted
by the court . . . shall be excludable under this subsection unless the court sets forth in the record of the
case, either orally or in writing, its reasons for finding
that the ends of justice served by the granting of such
continuance outweigh the best interests of the public
and the defendant in a speedy trial.” Id. Section
3161(h)(7)(B) then lists “[t]he factors, among others,
which a judge shall consider” in determining whether
to grant an ends-of-justice continuance.
that the government had indicted him more than thirty days after
his arrest, in violation of the Speedy Trial Act, 18 U.S.C.
§ 3161(b). Thus, Defendant did not waive his § 3161(h)(1)
argument.
6

18 U.S.C. § 3161(h)(7) provides, in relevant part: “The following periods of delay shall be excluded in computing the time within
which an information or an indictment must be filed[:] . . . Any
period of delay resulting from a continuance granted by the judge
. . . if the judge granted such continuance on the basis of his
findings that the ends of justice served by taking such action
outweigh the best interest of the public and the defendant in a
speedy trial.”

31a
Thus, § 3161(h)(7) “is explicit.” Zedner v. United
States, 547 U.S. 489, 507 (2006). “[W]ithout the on-therecord-findings, there can be no exclusion.” Id. “[I]f a
judge fails to make the requisite findings regarding
the need for the ends-of-justice continuance, the delay
resulting from the continuance must be counted, and
if as a result the trial does not begin on time, the
indictment or information must be dismissed.” Id. at
508. In this way, § 3161(h)(7) “gives the district court
discretion—within limits and subject to specific
procedures—to accommodate limited delays for casespecific needs.” Id. at 499. As the Supreme Court has
explained:
The exclusion of delay resulting from an endsof-justice continuance is the most open-ended
type of exclusion recognized under the [Speedy
Trial] Act and, in allowing district courts to
grant such continuances, Congress clearly
meant to give district judges a measure of
flexibility in accommodating unusual, complex, and difficult cases. But it is equally clear
that Congress, knowing that the many sound
grounds for granting ends-of-justice continuances could not be rigidly structured, saw a
danger that such continuances could get out of
hand and subvert the Act’s detailed scheme.
The strategy of [§ 3161(h)(7)], then, is to
counteract substantive openendedness with
procedural strictness. The provision demands
on-the-record findings and specifies in some
detail certain factors that a judge must
consider in making those findings.
Id. at 508–09.
“[T]he Sixth Circuit has placed great emphasis on
the need for a district court to comply with this statu-

32a
tory requirement.” Greenup v. United States, 401 F.3d
758, 764 n.3 (6th Cir. 2005); see, e.g., United States v.
Jordan, 544 F.3d 656, 665 (6th Cir. 2008) (“We believe
that in order to assure that the district court adequately considers whether the ends-of-justice outweigh the public’s and defendant’s interest in a speedy
trial, the district court should also generally hold an
adversarial hearing in which both sides participate.”).
“This Court will not countenance maneuvers aimed at
merely paying lip service to the Speedy Trial Act’s
requirements.” Brown, 819 F.3d at 815.
In this case, the magistrate judge issued an order
stating only that “[t]his matter coming before the court
on the stipulation of the parties, it is hereby . . .
ORDERED that the period from May 23, 2013, to the
new date of the preliminary hearing, June 7, 2013
should be excluded in calculating the time within
which the defendant shall be indicted under the
Speedy Trial Act. 18 U.S.C. § 3161.” (RE 12, Page ID #
32.) The order did not mention the ends of justice or
the interest of the defendant and the public in a speedy
trial, let alone any reasons for finding that one
outweighed the other. Accordingly, the magistrate
judge plainly did not comply with § 3161(h)(7), and
that should be the end of the matter. See Zedner, 547
U.S. at 507.
However, the majority attempts to circumvent this
conclusion by relying on the joint stipulation, which
the magistrate judge attached to its order. According
to the majority, the order “incorporates” the joint stipulation, and thereby complies with § 3161(h)(7). Maj.
Op. at 11. This holding is starkly inconsistent with the
Supreme Court’s and this Court’s emphasis on the
importance of complying with § 3161(h)(7)’s proce-

33a
dural strictness. Zedner, 547 U.S. at 508–09; Brown,
819 F.3d at 822.
As an initial matter, it is doubtful that the order
actually incorporated the joint stipulation, as the
order lacks any “explicit language of incorporation.”
See Bender v. Newell Window Furnishings, Inc., 681
F.3d 253, 264 (6th Cir. 2012). Moreover, the mere
agreement of the parties that the ends of justice
outweigh the interest of the defendant and the public
in a speedy trial cannot substitute for the district
court’s own findings to that effect. See United States v.
Ammar, 842 F.3d 1203, 1206–07 (11th Cir. 2016) (“The
best interests of the parties—and even those of the
court—cannot alone justify deviation from the [Speedy
Trial] Act’s requirements, absent the determination
that those interests outweigh the public interest.”);
Parisi v. United States, 529 F.3d 134, 140 (2d Cir.
2008) (“The ends-of-justice determination is . . .
entrusted to the court, not the parties, and the parties
cannot stipulate to its satisfaction as a substitute for
the district court’s finding to that effect.”). Congress
unequivocally imposed the procedural requirements of
§ 3161(h)(7) on the district court. See United States v.
Richmond, 735 F.2d 208, 216 (6th Cir. 1984).7
Regardless, even if the magistrate judge “adopted
the parties’ stipulation as part of its own reasoning,”
the joint stipulation stated only that the time Defendant spent in plea negotiations should be excluded
“because the ends of justice served by such continuance outweigh the interests of the public and the
7

Accordingly, this case is distinguishable from those relied
upon by the majority. In none of those cases did the district court
rely solely on the mere agreement of, or findings made by, the
parties.

34a
defendant in a speedy trial.” Maj. Op. at 11. Such a
conclusory statement does not comply with § 3161(h)(7).
See United States v. Toombs, 574 F.3d 1262, 1271
(10th Cir. 2009) (“A record consisting of only short, conclusory statements lacking in detail is insufficient [to
comply with § 3161(h)(7)].”); United States v. Bryant,
523 F.3d 349, 361 (D.C. Cir. 2008) (“The passing
reference to the ‘interest of justice’ made by the trial
judge . . . does not indicate that the judge seriously
considered the [§ 3161(h)(7)(B) factors]. Zedner makes
clear that trial judges are obligated to seriously weigh
the benefits of granting the continuance against the
strong public and private interests served by speedy
trials. . . .”). Rather, it is a “maneuver[] aimed at
merely paying lip service to the Speedy Trial Act’s
requirements.” Brown, 819 F.3d at 815.
For all of the foregoing reasons, I concur in part and
dissent in part.

35a
APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
————
Case No.: 13-30265
————
UNITED STATES OF AMERICA,
Plaintiff,
v.
JIMMIE EUGENE WHITE,
Defendant.
————
STIPULATION TO ADJOURN PRELIMINARY
HEARING AND COMPLAINT AND FIND
EXCLUDABLE DELAY UNDER THE
SPEEDY TRIAL ACT
The above parties, by and through their respective
counsel, stipulate and agree that there is good cause
to adjourn the Preliminary Hearing and Complaint in
this case until June 7, 2013. See Fed. R. Crim. P.
5.1(d). This extension of time is necessary to allow the
parties to engage in plea negotiations. Defendant
concurs in this request and agrees that it is in his best
interest.
The parties stipulate and agree that this stipulation
and any order resulting therefrom shall not affect the
previous order setting conditions of release, dated May
3, 2013. The parties also stipulate and agree that the
criminal complaint, dated April 29, 2013, shall remain
in full force and effect until June 7, 2013.

36a
The parties further stipulate that the period from
May 23, 2013, to June 7, 2013, should be excluded from
computing the time within which an information or
indictment must be filed because the parties are
engaged in plea negotiations, 18 U.S.C. § 3161(h)(1),
and because the ends of justice served by such
continuance outweigh the interests of the public and
the defendant in a speedy trial. See 18 U.S.C.
§ 3161(h)(7).
s/Gabriel S. Mendlow
Special Assistant United States Attorney
211 W. Fort, Suite 2001
Detroit, Michigan 48226
(313) 226-9643
gabriel.mendlow@usdoj.gov
s/John McManus (w/consent)
Attorney for the Defendant
999 Haynes, #205
Birmingham, Michigan 48009
(248) 642-5288
john@themcmanusfirm.com
Dated: May 16, 2013

37a
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
————
Case No.: 13-30265
————
UNITED STATES OF AMERICA,
Plaintiff,
v.
JIMMIE EUGENE WHITE,
Defendant.
————
ORDER ADJOURNING PRELIMINARY HEARING
AND COMPLAINT
This matter coming before the court on the stipulation of the parties, it is hereby
ORDERED that good cause exists to extend the
complaint and preliminary hearing in this case,
scheduled for May 23, 2013, to June 7, 2013. Fed. R.
Crim. P. 5.1(d);
ORDERED that the order setting conditions of
release, dated May 3, 2013, remains in full force and
effect, and that the complaint, dated April 29, 2013,
remains in full force and effect through the new date
of June 7, 2013; and
ORDERED that the period from May 23, 2013, to
the new date of the preliminary hearing, June 7, 2013,
should be excluded in calculating the time within
which the defendant shall be indicted under the
Speedy Trial Act. 18 U.S.C. § 3161.

38a
IT IS SO ORDERED.
S/Mark A. Randon
MARK A. RANDON
United States Magistrate Judge
Entered: May 17, 2013

39a
APPENDIX C
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
————
Case No. 13-20423
————
UNITED STATES OF AMERICA,
Plaintiff,
v.
JIMMIE EUGENE WHITE,
Defendant.
————
MOTION TO DISMISS INDICTMENT
————
BEFORE THE HONORABLE DAVID M. LAWSON
United States District Judge
Theodore Levin United States Courthouse
231 West Lafayette Boulevard
Detroit, Michigan
December 3, 2013
APPEARANCES:
FOR THE PLAINTIFF: KEVIN MULCAHY
United States Attorney’s Office
211 West Fort Street, Suite 2001
Detroit, Michigan 48226
FOR THE DEFENDANT: MARVIN BARNETT
Barnett Law Group of Michigan PLLC
1001 Woodward Avenue, Suite 800
Detroit, Michigan 48226

40a
[2] TABLE OF CONTENTS
MATTER

PAGE

MOTION TO DISMISS INDICTMENT
Argument by Mr. Barnett ..................................

4

Argument by Mr. Mulcahy ..................................

12

Patrial Ruling by the Court ...............................

16

Further Argument by Mr. Barnett .....................

17

Further Argument by Mr. Mulcahy ....................

21

Taken Under Advisement Pending Further
Briefing ...............................................................

25

CERTIFICATE OF COURT REPORTER ..........

27

[3] Detroit, Michigan December 3, 2013 2:27 p.m.
* * *
THE CLERK: All rise. The United States District
Court for the Eastern District of Michigan is now in
session. The Honorable David M. Lawson presiding.
THE COURT: You may be seated.
THE CLERK: Now calling the case of the United
States of America versus Jimmie Eugene White, Case
Number 13-20423.
THE COURT: Good afternoon, Counsel. May I have
your appearances, please.
MR. MULCAHY: Yes. Good afternoon, your Honor.
Kevin Mulcahy for the United States.
MR. BARNETT: Good afternoon, your Honor.
Marvin Barnett on behalf of Jimmie Eugene White, II.
THE COURT: Mr. White, good afternoon.
THE DEFENDANT: Good afternoon, your Honor.

41a
THE COURT: The matter is before the Court on the
Defendant’s motion to dismiss the indictment.
Mr. Barnett, I have looked through your motion, and
for the purpose of clarifying, it appears to me that you
believe or you are arguing that the period between the
execution of the search warrant in 2010 and the –
either the complaint or the indictment in this past
spring is the [4] operative period that we have to focus
on here, is that it, in terms of delay?
MR. BARNETT: In part, yes.
THE COURT: All right. Are you arguing that there
is a violation of the Speedy Trial Act itself, or are you
arguing that there is a constitutional violation, or
both?
MR. BARNETT: Both, your Honor.
THE COURT: Okay. And are you relying on the
Sixth Amendment right to a speedy trial, or are you
relying on the Fifth Amendment due process claim
because of pre-indictment delay, or both?
MR. BARNETT: Both. On the Sixth Amendment
claim and the pre-indictment delay. And we have a
more technical argument regarding when he was
initially arrested, on pre-indictment delay when he
was initially charged in the complaint.
THE COURT: Okay. I didn’t understand all of that
from your motion papers, but you can lay that out in
your argument, then, and you may proceed.
MR. BARNETT: Thank you, your Honor.
Your Honor, I would like to address the second argument that we had raised regarding the Speedy Trial
Act. It’s a more simpler argument that we make.

42a
The Defendant was ultimately, in this particular
case, arrested and a complaint filed against him.
Within a [5] period of about 37 days after his initial
appearance before the Magistrate, he was indicted
beyond the 30-day period.
THE COURT: I think it’s 33 days.
MR. BARNETT: Well, okay, fine. There is a dispute
between 33 and 37, but I’ll accept 33. Depends on how
you view it over the weekend or whatever.
THE COURT: Okay.
MR. BARNETT: Very simply, his attorney entered
into an agreed stipulation with the United States
Attorney to extend the period of time.
THE COURT: Right.
MR. BARNETT: If that extension is effective to the
Defendant, then that would be credited against him;
the issue would be moot, he would lose. His claim is
that he did not agree to that, had no knowledge of it,
that that extension was taking place. And quite
frankly, I didn’t know how to respond to it, because I
couldn’t come up with a reason why there would be
such a stipulation entered.
Our argument is very simple: He didn’t agree to it.
THE COURT: Who was his lawyer at the time?
MR. BARNETT: Gosh, he told me. One second. John
McManus.
THE COURT: Was that Mr. McManus?
MR. BARNETT: John McManus. Now, as a practical
matter, Judge, I think these things occur all of the
time. [6] Unfortunately, in my practice, I make people
sign things or make sure that they are in court with

43a
me. It’s a tough call, because normally we would
anticipate that the lawyer would have – I’m not
making any allegations, I’m simply saying that there
was no record of it. It was an off-the-record matter.
If the Court finds, based on the records and files of
the case, that the, in effect, waiver or extension was
valid, the Defendant loses that point.
If, in the event, the Court finds that it is not sufficient, and that is, that’s not effective to the Defendant,
it didn’t affect him and it’s a nullity, then we simply
have an indictment that’s filed after 30 days.
THE COURT: What is your position as to what is
necessary for that waiver to be effective?
I guess another way to say it is, what is your position
as to what is necessary to provide the defense lawyer
with the authority to make the stipulation?
MR. BARNETT: Two things, your Honor.
First, a signature by the Defendant would help,
that’s one.
THE COURT: Well, that would be proof.
MR. BARNETT: Well, okay, that would be proof.
THE COURT: Yeah. But that’s not necessary, is it?
MR. BARNETT: No, it isn’t, because we’re dealing
with an attorney.
[7] THE COURT: All right.
MR. BARNETT: I would think that if the attorney
indicated that he did communicate with the Defendant, I think that as an Officer of the Court, if we
compared that to what Mr. White said, that probably
would lean in favor of the attorney, who has an obligation to make sure that he is being honest about it.

44a
If the lawyer said that he didn’t communicate with
his client, your Honor, and there was a record of that,
I guess we would need for him to admit or deny that.
And if he admitted that, “I didn’t communicate with
my client in that regard,” I think that would be sufficient evidence, coupled with the Defendant’s affirmative
statement that it didn’t occur, for the Court to find
that the waiver or the agreement was ineffective.
THE COURT: Well, let’s talk about that for a
minute.
MR. BARNETT: Yes, sir.
THE COURT: Does the attorney need the Defendant’s permission to enter into a stipulation of this
nature?
MR. BARNETT: Judge, we looked at that issue, and
if I had to make the call, I’m not sure, because the
rights under the Speedy Trial Act, are they – his
constitutional rights, are they statutory? I don’t know
the answer to that question.
THE COURT: Well, plainly they are statutory, at
least.
[8] MR. BARNETT: Well, I know that. But whether
or not it reaches the level where one has to come before
the Court to waive a right, a significant right, is a
different question. I think it falls somewhere in between. Obviously, there are some things where it is
necessary that there be a record made of the Defendant’s concurrence with what the lawyer is doing, but I
can’t affirmatively say that there is a requirement,
because as a practicing attorney if my client has confidence and tells me to do what I think is appropriate,
then I might not inquire of him. It’s not one of those

45a
things I would necessarily say, as an Officer of the
Court, that I would always speak to my client about.
THE COURT: I guess I’m wondering is whether –
what I’m wondering is whether we are in the realm of
the Speedy Trial Act question, whether rights can be
waived, whether counsel can take steps, or whether
we’re talking about the Sixth Amendment right to
counsel and effective assistance of counsel here. And if
so, then would that decision be relegated to some
sort of strategic decision for which there is some
substantial deference that’s allowed to counsel.
The reason I say that is because the court order, and
I don’t think I signed that order, I think the Magistrate
Judge signed the order, it says that the period from
May 23 to June 7 should be excluded from computing
time, the time within which an information or indictment must be filed, because the [9] parties are engaged
in plea negotiations, there is a cite to the statute, and
because the ends of justice served by the continuance
outweigh the interest of the public and the Defendant
in a speedy trial, which is the magic words –
MR. BARNETT: I agree.
THE COURT: – that we’re familiar with.
Now, that seems to say that there is some conversation going on and the time is being expanded to have a
discussion, and if that’s the case, where are we, especially on this record, to second guess on that point?
MR. BARNETT: I think that you couldn’t. I think
that your statement is a very fair and accurate statement; that if the attorney simply chose to not communicate with the client regarding that, but it was for
the purpose of trial strategy and negotiating a resolution of the case solely in the best interest of the

46a
Defendant, and if, in fact, the lawyer did not communicate that to him, but just proceeded based on his
experience, you have an experienced attorney you’re
dealing with, and his purpose was, in fact, to obtain a
benefit, I think that would indeed not be ineffective
because of the fact that he is fighting for the interests
of the Defendant.
And the fact that he did not communicate with the
Defendant on this specific matter, I think in all
fairness, would be a matter of apparent authority. You
know, I’m the [10] lawyer. You hired me to do my job.
I don’t always communicate with you on certain matters that I’m not required as a matter of law to communicate with you. I presume that you expect that I
would do everything I can.
In my practice I will adjourn a date because I’m communicating with the Government or something and
I’m doing it for the interests of the Defendant.
Obviously, I know the attorney. I’m not trying to
raise it in that kind of sense, but in a technical sense,
I guess it would fall in that area. We don’t make that
claim today. But yes, if the lawyer said, “I didn’t communicate with him, but I was doing it because of a
matter of trial strategy, we were working with the
Government, we were trying to resolve this and I thought
it was appropriate for me to adjourn it for a couple of
days,” that would be – that would not be ineffective,
that would be good lawyering.
THE COURT: May I ask, did you talk to Mr.
McManus or attempt to obtain an affidavit from him?
MR. BARNETT: You know, Judge, I didn’t. I thought
about it.
THE COURT: You did or did not?

47a
MR. BARNETT: I did not.
THE COURT: Did not. Okay.
MR. BARNETT: And the reason I didn’t is, I didn’t
know whether it was appropriate for me to do that.
I just – [11] I didn’t know how to deal with that. I told
the Defendant that, you know, let me just wait,
because frankly, that claim he’s making was in that
area I just didn’t – I just did not, in anticipation of
what the Court would need.
But I agree with the Court, it does seem – although
what’s difficult is that the cases that we have,
somehow there is a case that I remember down south
somewhere, but the real question is: Does the Sixth
Amendment right of effective assistance of counsel
arise prior to indictment.
Can you actually, you know, can you be effective –
in other words, effective assistance of counsel, does it
run from the time in which I become the attorney of
record, and at which point strategy is there, do you
really have an obligation to be effective before an
indictment?
THE COURT: Well, I would think that it doesn’t
matter if it’s a complaint or an indictment. There was
a complaint filed, so the case is going.
MR. BARNETT: Well, your Honor, probably right,
yeah, yeah, yes. There – I would think that would be
effective. I just don’t know the answers to the question.
My gut would tell me that there probably wasn’t a
communication.
I was also concerned, I don’t know what representations were made, but as a matter of course, Judge, I
know these things happen routinely. We’re busy

48a
lawyers and we do these things. So there is nothing
wrong, but that’s –
[12] THE COURT: Do you have any further argument on this point?
MR. BARNETT: No, I don’t.
THE COURT: Well, let me hear from Mr. Mulcahy
on that, then.
MR. MULCAHY: Good afternoon, your Honor.
THE COURT: Good afternoon.
MR. MULCAHY: As it relates to the Speedy Trial
Act itself, I’m not sure Mr. Barnett and I are too far
apart. I think he is right that there is a court order
here that excludes time, excludes enough time such
that the indictment was returned consistently with
the Speedy Trial Act, and so it’s sort of – the argument
is sort of over at that point.
Today is the first time I have heard that Mr. White
apparently doesn’t agree that he allowed his lawyer or
agreed with his lawyer –
THE COURT: Authorized him.
MR. MULCAHY: – authorized him, thank you, to
move that date.
In response to your Honor’s question, I’m sure not
sure that he has – that the lawyer is required to obtain
the approval or authorization of his client to move a
date like a PE date. I know the Supreme Court has
said that a defendant cannot waive Speedy Trial Act
rights in and of themselves, which makes me believe
that the Speedy Trial Act is something [13] sort of different than some of the other requirements where the
defendant is required to affirmatively, himself, waive
a particular right.

49a
THE COURT: Oh, right. But I think that’s in the
context of the reality that the Speedy Trial Act doesn’t
simply protect the rights of the Defendant.
MR. MULCAHY: Sure.
THE COURT: The right to a speedy trial enures to
the Defendant and the Government and the public and
so –
MR. MULCAHY: Absolutely.
THE COURT: – the Defendant is just one of – a leg
of that three-legged stool, I guess, and so the Court has
to make a finding, which was done here.
MR. MULCAHY: Correct, your Honor. And because
that was done here, and we don’t – there really is no
evidence or, I guess, reason to suggest that Mr.
McManus entered into that stipulation improperly or
that the Court signed the order improperly, I think
what the Court has before it is a timely indictment
under the Speedy Trial Act.
THE COURT: All right. What’s the upshot? If the
indictment is untimely and we dismiss it, then I guess
I have to make a decision as to whether it ought to be
with or without prejudice, right?
MR. MULCAHY: Correct, your Honor.
THE COURT: And if I decided it – well, all right.
[14] Fair enough.
MR. MULCAHY: Okay. On that point, if I could just
say, add one more thought, if your Honor thought to
dismiss the indictment because it believed Mr. White
did not authorize this lawyer, I would suggest that
it would be without prejudice, because obviously the
Government could not possibly be aware of the
communications or lack of communications between

50a
Mr. White and his lawyer that would have led to the
Speedy Trial Act violation, if that makes some sense.
THE COURT: Yeah, no, I understand. I hear your
argument.
Anything else on this one, Mr. Barnett?
MR. BARNETT: Only that I’m sure the United
States Attorney would agree that about a couple of
days ago I did bring to his attention his claim that he
was – that it was not communicated with, and that he
may have forgotten, but I did – at least I thought I
brought it to his attention.
THE COURT: You mean in conversation?
MR. BARNETT: A conversation.
THE COURT: Oh, sure. It’s not a motion, though.
MR. BARNETT: No, no, but I did bring it to his
attention.
I have nothing else, your Honor, on that second
prong, that second argument, except that when you
consider making your decision, your Honor, it is one
thing that I [15] always depend on when I step into the
United States Federal District Court, always depend
on everything is correctly done, and if there is any
possibility that there should have been notice or not,
and if you find that there is nothing that necessarily
guides us in that direction, and if it’s just your
discretion, I think consistent – it would be consistent
for us to at least impose a rule that there ought be a
communication with the Defendant regarding that
matter, because of its seriousness.
And I would ask that the Court, if it’s a close call and
it’s not clear, that the Court would find that it is
appropriate for the Defendant to be informed. And it

51a
would affect the juris – the federal juris prudence. It
would be an important decision.
So I would ask if there is no clear evidence to suggest
that he had no obligation, and if the Court is not clear,
that it rule in favor of the Defendant. The Government
is not prejudiced by such a ruling and so I would ask
the Court to consider that.
THE COURT: All right.
MR. BARNETT: On the first argument –
THE COURT: Let me deal with that one first.
MR. BARNETT: Yes, sir.
THE COURT: And then we will go to the next
argument.
I have some questions about that, of course.
[16] MR. BARNETT: Yes, your Honor.
THE COURT: On this point, what I have before me
is a finding by a judicial officer that the time was
appropriately excluded based upon the fact that the
parties were engaged in plea negotiations. The order
was based in some measure on a stipulation, but it is
also based on the independent finding of a judicial
officer, as it must be under the Speedy Trial Act.
I don’t have enough of a record at this point to
support a claim that there was some ultravirus action
by the defense lawyer in the case. I have no testimony.
I have no sworn statement by the Defendant. I have
no testimony from the lawyer himself, and I’m not sure
that I would need a – anything other than some sort of
explicit instructions from the Defendant not to enter
into such a stipulation to prevent the lawyer from
doing so, because I think the lawyer, if, in fact, he
intended to engage in plea negotiations and needed

52a
some time to do that, would have exercised some
measure of sound strategy to enter into the agreement.
So I’m going to deny relief on that ground.
Where does that leave you? Well, I suppose it leaves
you without a Speedy Trial Act argument on this
ground, but somewhere down the line if there is a
conviction and a sentence, it might leave you with the
opportunity to file something under Section 2255 and
make a record, because, [17] essentially, you would be
claiming ineffective assistance of counsel and then
you would have to show defective performance and
prejudice that would result.
Now, your prejudice argument, I would think, not
that I’m trying to spin this out, would have to take into
account whether or not a dismissal here would be with
or without prejudice, and I don’t see any arguments for
dismissing the case with prejudice based upon this
sort of a delay.
MR. BARNETT: Actually, Judge, I actually agree
with you. There’s only one problem, however, with
something that the Court stated. Yes, there was a
stipulation, but it doesn’t appear as though the Magistrate had a sufficient factual basis other than the
stipulation itself.
In other words, from what I can tell, there was no
determination made at all. I don’t – I don’t believe that
they appeared before the Magistrate. I think that they
just had a stipulation that the parties agreed. And
then when they used the broad term, “the parties,” the
Magistrate may have assumed that that was the
Defendant. I don’t think that you have a strong enough
record to make a determination as to what happened
and would –

53a
THE COURT: But I don’t have to. The Magistrate
Judge made a finding and I can rely on that.
MR. BARNETT: Well, yes, you can rely on the
Court’s finding, it’s just something that it suggests to
you that the [18] Court – that the Magistrate had a
basis of making it other than the stipulation.
THE COURT: Well, I don’t see anything here that
would either compel me, or permit me, or suggest that
I ought to go behind the Magistrate Judge’s finding
under the circumstances.
MR. BARNETT: Last – well, thank you, your Honor,
and I’m very aware of your decision.
THE COURT: So that’s my ruling on that.
But with respect to the next part of your motion, do
you have any further arguments that are based upon
the Speedy Trial Act?
MR. BARNETT: No.
THE COURT: All right. So then let’s go to your
constitutional arguments.
MR. BARNETT: Constitutional argument, your
Honor, very interesting argument where the Defendant is arrested, search warrant executed. Government
had enough information to charge the Defendant with
the offenses. The Defendant was taken into custody.
He, according to the Government, waiting for paperwork, entered into an agreement to cooperate with
them. And also, the Defendant for some reason signed
an administrative forfeiture, which I thought was unusual, at that time. And then he was released into the
custody of the [19] Wayne County Jail, because there
was a warrant in October.
THE COURT: On something else.

54a
MR. BARNETT: I’m sorry, a warrant in Ohio, excuse
me.
THE COURT: For something else.
MR. BARNETT: For someone [sic] else. And he went
to Ohio and he was down there for six months, served
out a term, and in October of 2010, he is released. We
clearly have –
THE COURT: What was administratively forfeited?
MR. BARNETT: $26,000.
THE COURT: Cash?
MR. BARNETT: Cash.
THE COURT: What about the gun?
MR. BARNETT: I don’t know about the gun. I don’t
know if the gun was subject to forfeiture or not.
THE COURT: It might have just been seized.
MR. BARNETT: It was certainly – a weapon was
seized, but the Defendant denied that the weapon was
his at that time. But your Honor, if I may be perfectly
frank, I think this was just a mistake. I mean, you’re
talking about three years from October of 2010 to
2013.
THE COURT: You mean the case just fell through
the cracks?
MR. BARNETT: I think it just fell through the
cracks.
THE COURT: Maybe so.
MR. BARNETT: It’s their burden.
[20] THE COURT: So what’s the consequence?

55a
MR. BARNETT: The consequence is a dismissal
with prejudice, and a prejudice argument can clearly
be made.
THE COURT: Make it.
MR. BARNETT: Okay. If the Defendant had
information at that time to cooperate and was willing
to cooperate at that moment of time and they – if
they had have indicted him, he could have exercised
his right to allocute. He could have given substantial
assistance to the United States Government. He could
have affected himself.
The best way, I guess by way of analogy, and this is
not technically correct, but years ago in that civil context I remember a concept of staleness and of – that
my ability to help myself is gone. The witnesses I had,
the people I knew are not available. So –
THE COURT: And you’re saying that –
MR. BARNETT: He couldn’t exercise his Fifth
Amendment right as effectively as he could had that
occurred.
THE COURT: You’re saying he can’t do that now –MR. BARNETT: No.
THE COURT: – because the information isn’t
current anymore.
MR. BARNETT: That’s right. And right now –
THE COURT: If he had any.
MR. BARNETT: That’s right. And right now they
have [21] no use for it. That’s – that’s clear prejudice
right there.
THE COURT: All right.

56a
MR. BARNETT: Thank you. It’s their burden on this
one, I think, Judge.
MR. MULCAHY: As to the constitutional issue, your
Honor.
THE COURT: Tell me why the case fell through the
cracks.
MR. MULCAHY: I don’t have a very good explanation for that. I think it actually did just fall through
the cracks. There’s –
(Phone interruption at 2:51 p.m.)
THE COURT: Just a minute. Let Mr. Barnett attend
to that.
MR. BARNETT: Sorry, Judge. My staff bought me
this new phone and I don’t like it. Excuse me, your
Honor. I’m sorry. It’s off. Sorry. My apologies.
THE COURT: You know, when we have the video
presentation for exhibits in the courtroom I have a rule
that I don’t let lawyers push buttons, because nothing
good results from that.
MR. BARNETT: I agree, your Honor. My staff says
the same thing.
MR. MULCAHY: As to the issue of sort of where the
case went, there’s a slight amount of time that can be
[22] attributed, I think, to Mr. White, but the threeyear delay, putting aside where the clock begins to run
from a constitutional standpoint, just from real life,
three years from the time they hit the door in May of
2010 versus the time a criminal complaint was filed
about three years later.
Mr. White indicated the night that the search warrant was executed at his house that he would be willing to cooperate. He knew of an individual who was

57a
providing him the pills; that this individual was from
Canada. As I think the Court knows, it’s very common
for ecstasy or BZP, which is sort of an offshoot from
ecstasy, to come from Canada. I think the agents were
interested in working with him.
A few things happened, and I’m not sure all of
which, the details of all that happened. I know part of
the problem was that Mr. White did have a time in
prison down in Ohio for a fraud-related charge, unrelated to drugs and this case here. He did that time
there and whether or not the agents thought at that
point too much time had gone by for Mr. White to be
useful, or if Mr. White thought, “I’m not sure I really
want to cooperate against these people in Canada,” or
perhaps both, I don’t know. So there is that piece of
time, I think, that could be attributable to Mr. White,
or certainly his circumstance of being in prison.
Why the case took three years to go from an execution of a search warrant on a fairly straightforward
case to [23] indictment, I don’t frankly have a very
good answer. The case was in our office. The case was
under investigation. It eventually changed AUSA’s,
which led to the sort of resurrection of the case and
moving the case along and resolving it.
THE COURT: This is a single-defendant case, isn’t
it?
MR. MULCAHY: Correct, your Honor.
THE COURT: So –
MR. MULCAHY: Now, in fairness, there was a Title
III, and I think there were other folks, a Title III intercept of Mr. White’s phone. It didn’t last an incredibly
long period of time, so I think there was potential –

58a
THE COURT: Well, that led to the search warrant,
right?
MR. MULCAHY: Correct, your Honor. And I think
there was potential for other folks from the wire that
perhaps could have been defendants here, but, right,
as we stand here now it’s a single-defendant case and
there isn’t any defendant who is a fugitive or died or
anything like that, that I can point to. Whether or not
the agents thought this could be a bigger case because
of the wire, I don’t know.
But I think what’s important for where we’re at now,
in late 2013, is that for the constitutional violation to
hold or to start, Mr. White needs to be an accused. The
Sixth Amendment says that the speedy trial – the
right to a speedy [24] trial is for an accused.
THE COURT: Right.
MR. MULCAHY: And he wasn’t an accused until
there was a criminal complaint or some type of process
against him.
THE COURT: I understand that well.
MR. MULCAHY: Okay.
THE COURT: And frankly, I’m not particularly
impressed with the Sixth Amendment argument, but
there is a Fifth Amendment argument regarding preindictment delay, and he is entitled to avail himself of
that if he can satisfy the standards. So that’s really
what we’re dealing with here, in my view, with all due
respect to Mr. Barnett.
Under the Six Amendment, the delay is not presumptively extraordinary, it’s only six months. As we
stand here now –
MR. MULCAHY: Correct.

59a
THE COURT: – it’s only six months. And that time,
much of that time is excluded under the Speedy Trial
Act. From the indictment first appearance time to
now, unexcluded time amounts to about 20 days. But
the three years, that’s why I asked Mr. Barnett to
begin with, what are we talking about here, and that’s
the period that he is focusing on.
MR. MULCAHY: And in that regard, I guess I would
ask for the opportunity to brief that issue because it
wasn’t raised in the pleadings themselves, and so I
didn’t brief, and [25] frankly don’t have the standard
off my – rattled around in my brain today of what the
Fifth Amendment due process analysis should be.
THE COURT: Well, Mr. Barnett might want an
opportunity to address that, too, would you say, Mr.
Barnett?
MR. BARNETT: Your Honor, I think it would – in
all fairness, I would have no opposition if the Court
wanted me to brief an additional issue. I would have
no problem with that. We’re trying to do the right
thing here.
THE COURT: All right. How much time would you
like?
Mr. Barnett, I think if you’re going to raise a Fifth
Amendment argument, which, fairly stated, is not
included in your motion papers right now –
MR. BARNETT: I think that would be a fair
statement.
THE COURT: – you should go first and Mr. Mulcahy
should have an opportunity to respond to it.
MR. BARNETT: I agree. I have a 21-day default in
my brain.

60a
THE COURT: That’s fine. That’s fine.
MR. BARNETT: Thank you.
THE COURT: There is – this case has been around
for more than three years, 21 days isn’t going to hurt.
MR. BARNETT: Very well, your Honor.
THE COURT: And 21 days takes you right into the
middle of Christmas season, as I calculate.
[26] MR. BARNETT: I think the 28th.
THE COURT: That would be the 24th. Would you
like to file your brief on Christmas Eve?
MR. BARNETT: No, no, I don’t, your Honor. I would
like – I would like a little bit more time.
THE COURT: Because if so, we could have a couple
of elves in the Clerk’s Office receive it from you.
MR. BARNETT: Your Honor, at some point during in reflection, some point during the year 2014, other
than January the 2nd would be fine.
THE COURT: How about the 6th? It’s the first
Monday in January.
MR. BARNETT: Very well, your Honor.
THE COURT: You want 21 days to respond, Mr.
Mulcahy?
MR. MULCAHY: Yes, please, your Honor.
THE COURT: That would be the 27th of January.
MR. MULCAHY: Yes, your Honor.
THE COURT: You can submit supplemental briefs.
Try to keep them down to ten pages or below, if you
would.

61a
MR. BARNETT: Thank you very much, your Honor.
THE COURT: All right. Anything further, then?
MR. BARNETT: Nothing else, your Honor.
MR. MULCAHY: Nothing.
THE COURT: All right. Thank you. This matter is
in recess.
[27] May I see Counsel at the bench, please?
(Proceedings adjourned at 2:57 p.m.)
* * *
CERTIFICATE OF COURT REPORTER
I certify that the foregoing is a correct transcript from
the record of proceedings in the above-entitled matter.
s/ Rene L. Twedt
RENE L. TWEDT,
CSR-2907, RPR, CRR, RMR
Federal Official Court Reporter
October 10, 2014
Date

62a
APPENDIX D
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
————
Case Number 13-20423
————
UNITED STATES OF AMERICA,
Plaintiff,
v.
JIMMIE EUGENE WHITE II,
Defendant.
————
Honorable David M. Lawson
————
OPINION AND ORDER DENYING MOTION TO
DISMISS INDICTMENT
Defendant Jimmie Eugene White II charged in a
four-count indictment with drug and firearms crimes,
filed the present motion to dismiss the case against
him alleging that his right to a speedy trial has been
abridged. He contends that the delay between his
arrest (and brief detention) in May 2010 and his
indictment in June 2013 violated his rights under
the Sixth Amendment and the Speedy Trial Act. The
government filed an answer in opposition to the
motion. At oral argument held on December 3, 2013,
counsel for the defendant conceded that no Speedy
Trial Act violation occurred in this case. The Court
suggested that pre-indictment delay, which was the

63a
focus of the defendant’s argument, does not implicate
the speedy trial right found in the Sixth Amendment,
although it may violate the Fifth Amendment in some
cases. The defendant requested an opportunity to
investigate that theory and file a supplemental brief,
and the Court set a deadline of January 6, 2014. The
parties later submitted a stipulation to enlarge that
time, and the Court set a new deadline of January 20,
2014. That time has passed, no additional filings have
been received from the defendant, and the Court finds
that he has abandoned any claim of pre-indictment
delay under the Fifth Amendment. The Court concludes that the defendant has not been denied his
right to a speedy trial, and therefore will deny the
motion to dismiss.
I.
According to the parties’ statements in the motion
papers, on February 4, 2010, the Drug Enforcement
Administration (DEA) received authorization to intercept the defendant’s cell phone calls. DEA agents
learned from the intercepted phone calls that the
defendant conspired to sell Ecstasy.
On May 14, 2010, DEA agents executed a federal
search warrant at the defendant’s home. Agents seized
the following items inside a locked safe located in the
master bedroom: (1) 898 pills of N-Benzylpiperazine
Dihydrochloride (BZP); (2) $25,396 in United States
Currency; (3) a Cobray PM-11 9 mm. pistol with an
obliterated serial number; and (4) a magazine loaded
with 25 rounds of 9 mm. ammunition. Agents also
seized other items in the defendant’s home, including
$1,253 in United States Currency located in the
defendant’s pants pockets, two pistol magazines, one
rifle magazine, and several identification cards, both
real and fraudulent.

64a
DEA agents detained and questioned the defendant
that same day. During questioning, the defendant
admitted selling Ecstasy for approximately one year
(with sales surpassing 10,000 pills). He said that a
Canadian man supplied him with the pills, but the
seized drugs and money belonged to him. The defendant denied owning the gun, even though it was found
in the safe with all of the pills and most of the money.
The government did not charge the defendant with a
crime at that time, in part, because the defendant promised to cooperate with the DEA. It appears that he was
released from custody shortly thereafter. The defendant never cooperated, perhaps because he received a
prison sentence in Ohio for fraudulent activity.
Nearly three years later, on April 29, 2013, the government filed a complaint against the defendant
charging him with various crimes related to the May
14, 2010 search and seizure. On
May 2, 2013, an arrest warrant was issued for the
defendant, the defendant appeared before Magistrate
Judge Mona Majzoub for his initial appearance, and
an order of temporary detention was entered. On May
17, 2013, the parties stipulated and the Court ordered
that good cause existed to extend the complaint and
the preliminary hearing in the case from May 23, 2013
to June 7, 2013. The Court excluded from the Speedy
Trial Act’s time limits the period from May 23, 2013 to
the new date of the preliminary hearing.
On June 4, 2013, thirty-three days after the defendant’s initial appearance, the grand jury indicted White
for conspiracy to distribute Ecstasy and BZP, in violation of 21 U.S.C. § 846; possession of BZP with intent
to distribute, in violation of 21 U.S.C. § 841(a)(1);
possession of a firearm in furtherance of a drug trafficking crime, in violation of 18 U.S.C. § 924(c)(1)(A);

65a
and possession of a firearm by a convicted felon, in
violation of 18 U.S.C. § 922(g)(1). Counsel was appointed to represent him, and White was arraigned and entered a plea of not guilty on June 12, 2013. The Court
entered a scheduling order on June 20, 2013 setting an
August 6, 2013 trial date.
Since the defendant’s indictment, the parties filed
various motions in the case. On June 21, 2013, the
defendant, acting on his own behalf, filed a motion to
compel discovery. The Court denied the defendant’s
motion on July 1, 2013 because the Court’s scheduling
order included a requirement for consultation by defense
counsel with the government concerning discovery,
and the defendant did not act through his counsel. On
July 2, 2013, the defendant filed more motions pro se,
including a motion for new attorney, motion to unseal
case number 10-50558, motion to suppress evidence,
and motion to dismiss the case for violation of the
Speedy Trial Act.
On July 11, 2013, the defendant’s attorney, John
McManus, filed a motion to withdraw alleging a break
down in the attorney-client relationship because the
defendant filed multiple pro se motions despite counsel’s
advice to the contrary and also sent a letter to the
Court suggesting that counsel was not acting in his
interests. The Court held a hearing on Mr. McManus’s
motion to withdraw on August 5, 2013, granted the
motion, and allowed the defendant a week to find new
counsel to retain (which was his desire) before appointing another attorney to represent him.
On August 9, 2013, attorney Marvin Barnett filed
an appearance on behalf of the defendant. At a hearing
held that day, the Court again approved Mr. Manus’s
withdrawal, dismissed without prejudice the defendant’s pro se motions, and established new case dead-

66a
lines, including a new trial date of October 8, 2013.
The Court excluded the time between August 12, 2013
and September 23, 2013 from the Speedy Trial Act
time limits to account for new defense counsel’s trial
preparation needs. The new scheduling order was entered on August 26, 2013.
On September 12, 2013, the parties filed a stipulation to enlarge the case deadlines and adjourn the
trial. They agreed that the resulting delay should be
excluded from the Speedy Trial Act time limits.
The defendant filed the present motion to dismiss on
September 24, 2013. As mentioned above, the Court
held a hearing on the motion on December 3, 2013, and
thereafter granted the defendant’s request to file supplemental briefs. That filing deadline, once extended, has
passed, and because no new briefs have been filed, the
Court proceeds to adjudicate the motion.
II.
The defendant argues that the government violated
a provision of the Speedy Trial Act, 18 U.S.C. § 3161(b),
when it failed to charge the defendant with the commission of an offense within thirty days from the date
of his arrest. The defendant says that he was arrested
on May 14, 2010 when DEA agents executed a search
warrant at his home, but the complaint was not sworn
until April 29, 2013 and the indictment was not returned until June 4, 2013. The defendant also argues
that his Sixth Amendment right to a speedy trial was
violated because there was a three-year delay between
the authorization and execution of the federal search
warrant and the date that the government filed the
complaint. He contends that he was prejudiced by the
speedy trial violation because he was denied an opportunity to cooperate with the government and possibly

67a
avoid prosecution at all. The Court will address each
argument in turn.
A. Speedy Trial Act
According to18 U.S.C. § 3161(b), “[a]ny information
or indictment charging an individual with the commission of an offense [must] be filed within thirty days
from the date on which such individual was arrested
or served with a summons in connection with such
charges.” The premise of the defendant’s argument
that the government violated this statute is that his
“arrest” date was in May 2010. However, a “defendant
is not ‘arrested’ for purposes of the Speedy Trial Act
until formal federal charges are pending, that is, when
a formal complaint or charge is issued.” United States
v. Salgado, 250 F.3d 438, 454 (6th Cir. 2001); see also
United States v. Graef, 31 F.3d 362, 363-64 (6th Cir.
1994) (“[C]ourts [have] unanimously . . . conclude[d]
that the arrest ‘trigger’ for § 3161(b) applies only to
arrests made either on a complaint or which were
immediately followed by a complaint.”); United States
v. Blackmon, 874 F.2d 378, 381 (6th Cir. 1989) (“A
defendant is not ‘arrested’ for purposes of the Speedy
Trial Act until formal federal charges are pending. An
‘arrest’ refers to the point at which a defendant is
charged with the crime; therefore, a defendant is not
‘arrested’ until a formal complaint or formal charge is
issued.”) (internal citations omitted).
For Speedy Trial Act calculations, the “arrest” in
this case took place on May 2, 2013, after the government swore out a complaint against White. Although
White was not indicted until thirty-three days later,
he and the government agreed that the time period
should be enlarged. Based on that agreement, the
magistrate judge ordered that “the period from May
23, 2013, to June 7, 2013, should be excluded from

68a
computing the time within which an information or
indictment must be filed because the parties are engaged in plea negotiations.” Order Adj. Prelim. Exam.
[dkt. #12]. When that exclusion is taken into account,
only twenty days elapsed between the arrest and the
indictment, and no violation of 18 U.S.C. § 3161(b)
occurred. There was no Speedy Trial Act violation.
B. Sixth Amendment claim
The Sixth Amendment guarantees the defendant’s
“right to a speedy and public trial,” U.S. Const. am. VI,
but once again the defendant’s argument falters when
his measuring parameters are examined. The three
years between his detention for questioning and his
formal arrest on the complaint and warrant do not
figure in analysis, at least under the Sixth Amendment.
“A criminal defendant’s right to a speedy trial attaches only when a criminal proceeding has been initiated and the defendant ‘faces a real and immediate
threat of conviction.’” United States v. Watford, 468
F.3d 891, 901 (6th Cir. 2006) (quoting United States v.
Sanders, 452 F.3d 572, 579 (6th Cir. 2006)). “Neither
[Speedy Trial Act] nor the Sixth Amendment rights of
appellants apply to the time between a criminal occurrence and a subsequent formal charge of wrongdoing.”
United States v. Alfarano, 706 F.2d 739, 741 (6th Cir.
1983) (citing United States v. MacDonald, 456 U.S. 1
(1982); United States v. Marion, 404 U.S. 307 (1971)).
The Sixth Amendment speedy trial right does not
come into play until a formal charge is made. United
States v. Martin, 543 F.2d 577, 579 (6th Cir. 1976); see
also United States v. Marion, 404 U.S. 307, 313 (1971).
The delay in actually bringing formal charges is not a
concern addressed by the Sixth Amendment. United

69a
States v. Loud Hawk, 474 U.S. 302, 311-12 (1986)
(stating that “[t]he Speedy Trial Clause does not . . .
limit the length of a preindictment criminal investigation even though ‘the [suspect’s] knowledge of an
ongoing criminal investigation will cause stress, discomfort, and perhaps a certain disruption in normal
life.’” (quoting MacDonald, 456 U.S. at 9)).
Although the defendant was briefly detained for
questioning on May 14, 2010, the government did not
arrest him until May 2, 2013 (after filing a formal
complaint on April 29, 2013) or indict him until June
4, 2013. Therefore, the Court must measure delay
when evaluating the defendant’s Sixth Amendment
claim from his May 2, 2013 arrest. See United States
v. Bass, 460 F.3d 830, 836 (6th Cir. 2006) (“The length
of delay is measured from the earlier of the date of
indictment or arrest to the defendant’s trial.”);
Watford, 468 F.3d at 901 n.4 (stating that “in most
cases, the triggering event [under the Sixth Amendment] will be the filing of an indictment”; although
acknowledging that “arrest may also trigger an
accused’s Sixth Amendment speedy trial rights.”)
(citing United States v. MacDonald, 456 U.S. 1, 7
(1982)); United States v. Gouveia, 467 U.S. 180, 18586 (1984) (“[T]he Sixth Amendment speedy trial right
is triggered when an individual is arrested and held to
answer criminal charges.”).
The length of the dely is one of four factors to consider in determining whether a defendant has been
denied a speedy trial in violation of the Sixth Amendment. Barker v. Wingo, 407 U.S. 514, 530 (1972) (the
others are (2) the reason for the delay; (3) the defendant’s assertion of his right; and (4) prejudice to the
defendant). “The first factor is a threshold requirement, and if the delay is not uncommonly long, judicial

70a
examination ceases.” United States v. Robinson, 455
F.3d 602, 607 (6th Cir. 2006) (citing United States v.
Schreane, 455 F.3d 602, 607 (6th Cir. 2006)); see also
Barker, 407 U.S. at 530 (“Until there is some delay
which is presumptively prejudicial, there is no necessity for inquiry into the other factors that go into the
balance.”); United States v. Gardner, 488 F.3d 700, 719
(6th Cir. 2007) (“The length of the delay is a threshold
issue. That is, if there is no delay that is presumptively
prejudicial, there is no necessity for inquiry into the
other factors.”).
“[A] delay of one year is presumptively prejudicial
and triggers application of the remaining three factors.” Bass, 460 F.3d at 836. The delay between the
defendant’s formal arrest and the date he filed his
motion to dismiss was less than six months, which is
not “uncommonly long.” See United States v. Gardner,
488 F.3d 700, 719 (6th Cir. 2007) (holding that delay
of approximately nine months was not “uncommonly
long”); see also Randle v. Jackson, 544 F. Supp. 2d 619,
632 (E.D. Mich. 2008) (approximately eleven month
delay between arrest and trial on armed robbery and
possession of a firearm in the commission of a felony
charges was, “although substantial . . . not uncommonly long”). There is no Sixth Amendment violation.
C. Pre-indictment delay
As discussed at oral argument, the delay between
arrest and filing the charging documents could implicate the Due Process Clause of the Fifth Amendment.
Marion, 404 U.S. at 324. But the Supreme Court has
observed that “no one’s interests would be well served
by compelling prosecutors to initiate prosecutions as
soon as they are legally entitled to do so.” United
States v. Lovasco, 431 U.S. 783, 792 (1977). Proof of
prejudice is a necessary element of a due process claim

71a
for pre-indictment delay. Lovasco, 431 U.S. at 790. The
Sixth Circuit has consistently read Lovasco to hold
that dismissal for pre-indictment delay is warranted
only when the defendant shows both substantial prejudice to his right to a fair trial and that the delay was
intentionally imposed by the government to gain a
tactical advantage. See United States v. Brown, 959
F.2d 63, 66 (6th Cir.1992).
Showing both prejudice and ill motive is not easy.
The defendant was invited to file a supplemental brief
if he desired to advance such a claim, but apparently
he chooses not to do so. The Court concludes, therefore,
that he has abandoned any claim that pre-indictment
delay violated his rights under the Fifth Amendment.
See United States v. Graham, 622 F.3d 445, 455 n.9
(6th Cir. 2010).
III.
The defendant’s right to a speedy trial has not been
violated. He has not established either a statutory or
constitutional violation.
Accordingly, it is ORDERED that the defendant’s
motion to dismiss the indictment [dkt. #35] is DENIED.
It is further ORDERED that the parties appear for
a jury trial on March 4, 2014 at 8:30 a.m.
It is further ORDERED that the parties appear for
a final pretrial conference on February 18, 2014 at 2:00
p.m. The guilty plea deadline is adjourned to February
17, 2014.
s/David M. Lawson
DAVID M. LAWSON
United States District Judge
Dated: February 4, 2014

72a
APPENDIX E
NOT RECOMMENDED FOR PUBLICATION
File Name: 17a0110n.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
[Filed February 16, 2017]
————
No. 16-1009
————
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
JIMMIE EUGENE WHITE, II,
Defendant-Appellant.
————
ON APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE
EASTERN DISTRICT OF MICHIGAN
BEFORE: GUY, CLAY, and GRIFFIN, Circuit Judges.
GRIFFIN, Circuit Judge.
In this direct criminal appeal, defendant Jimmie
White, II, appeals his convictions for drug distribution
and firearms crimes. He alleges violations of the
Speedy Trial Act, 18 U.S.C. § 3161 et seq., and the
Sixth Amendment’s Speedy Trial Clause. White also
maintains the district court erred in failing to suppress the tracking information for his cell phone, and
challenges the sufficiency of the evidence in support of
his firearms convictions. We affirm the district court’s
judgment.

73a
I.
After a months-long investigation into ecstasy trafficking in Detroit, Drug Enforcement Agency (“DEA”)
agents executed a search warrant at White’s home on
May 14, 2010. From a locked safe, they recovered over
$25,000 in cash, 898 N–Benzylpiperazine Dihydrochloride (“BZP”) pills, an unloaded Cobray 9 mm handgun with an obliterated serial number, and an extended magazine loaded with twenty-five rounds of ammunition for the handgun. The safe was divided into two
immediately-accessible compartments with the gun
and ammunition on one side, and the pills and cash on
the other.
The investigation precipitating the search involved
several investigation techniques, including a Title III
wiretap interception of White’s cell phone conversations, and state-issued search warrants to track the
location of his cell phone. The Title III wiretap authorized agents to monitor White’s calls from early
February to early March 2010. During that time, the
agents recorded White arranging a series of drug
deals. For example, on February 17, 2010, White spoke
with an unidentified male calling to “see what the play
is,” and then requesting “a nickel” of “the fine.” White
called back the next day, saying he had pills imprinted
with airplanes. The client said he wanted “the chalky
ones” and “some hitters” because he “d[id]n’t want no
more complaints[.]” White advised that the “airplanes”
and “transformers” were a “good combo,” and the two
arranged to meet that Saturday.
The agents also obtained search warrants to track
the location of White’s cell phone.1 A DEA agent signed
1

White claims three such warrants were issued for his cell
phone: on May 28, 2009, February 5, 2010, and April 10, 2010.

74a
the affidavit presented in support of the May 28, 2009,
warrant request. A Dearborn Heights, Michigan police
officer assigned to the DEA as a task force officer signed
the affidavit presented in support of the February 5,
2010, warrant request. To justify the request, the affiants each swore that:
[I]n order to determine where the cellular
phone is being used, it is necessary that the
above stated records be furnished to your Affiant on a continuous basis until the account is
closed, or until known are [White’s] drug trafficking activities, his residence, his vehicles
and his narcotics distribution associates.
A state magistrate judge issued these warrants for 30
days for the searching of
[a]ny and all records relating to the location
of cellular phone tower(s) including specific
active GPS precision tracking of cellular phone
number (313) 674-6225. Said records shall
include the time period from [date], on a continuous basis until [date].
Based primarily on information obtained through
calls intercepted under the Title III wiretap and physical surveillance, a magistrate judge issued a warrant
to search White’s home. When the search began,
White’s mother and brother were home. White was
also home, asleep in the master bedroom with a female
acquaintance. After White emerged from his bedroom
undressed, the agents allowed him to return to get
Only the May and February warrants are available in the record,
however. Because White makes no argument particular to the
April 10, 2010, warrant, we limit our discussion to the May and
February warrants, as did the district court.

75a
some clothing. In addition to White’s clothes, the master bedroom contained many other personal items,
including his bank statements, debit card, passport,
social security card, two driver’s licenses, and cell
phone. The safe was also in White’s bedroom, but the
agents had to take it outside and pry it open because
neither White nor anyone else in the home would surrender a key or divulge the combination.
While the search was ongoing, DEA agents arrested
White and took him to their Detroit office to interview
him. The arrest form states White was arrested for
“probable cause” and on an outstanding Ohio warrant.
White waived his Miranda rights at the DEA office
and spoke with the agents. He admitted selling ecstasy
for about one year and estimated that he had sold
around 10,000 pills. He also admitted the safe was his,
and volunteered that it contained about 900 pills and
around $25,000 in cash. White denied knowing about
the gun, however, and speculated that someone must
have put it in the safe during a party he hosted the
previous weekend.
The government did not formally charge White at
that time, in part because he promised to cooperate
with the DEA. Instead, White was released into state
custody and held at the Wayne County jail on the Ohio
warrant until he was extradited to Ohio to face state
charges pending against him there. He was sentenced
in Ohio on October 12, 2010, to time served and
released.
On April 29, 2013, the government filed a complaint
against White charging him with drug distribution
and firearm crimes related to the May 14, 2010, search
and seizure. White was arrested on those charges, and
an order of temporary detention was entered, on May

76a
2, 2013. He made his initial appearance the next day
and was released on bond.
After his arrest, the parties engaged in pre-indictment
plea negotiations. To that end, they filed a stipulation
with the district court on May 17, 2013, agreeing to
adjourn White’s preliminary hearing and exclude the
time between May 23, 2013, and June 7, 2013, from
White’s Speedy Trial Act clock. Plea negotiations were
not successful, and a grand jury indicted White on
June 4, 2013, on the following four counts:
Count I: conspiracy to distribute BZP and
ecstasy or MDMA, 21 U.S.C. § 846;
Count II: possession of BZP with intent to
distribute, 21 U.S.C. § 841(a)(1);
Count III: possession of a firearm in furtherance of a drug trafficking crime, 18 U.S.C.
§ 924(c)(1)(A); and
Count IV: possession of a firearm by a
convicted felon, 18 U.S.C. § 922(g)(1).
White was arraigned on June 12, 2013.
As his case progressed, White filed more than twenty motions, both pro se and through counsel. Among
them was his motion through counsel to dismiss the
indictment for violations of the Speedy Trial Act and
the Sixth Amendment’s Speedy Trial Clause, and his
pro se motion to suppress the tracking information
derived from the warrants issued for his cell phone.
The district court held a hearing on each and denied
both.
The district court held a three-day trial. White
stipulated to having a prior felony conviction. The
government played several of White’s cell phone calls
for the jury. The government also relied on evidence of

77a
the contents of the safe and White’s bedroom. Ultimately, a jury convicted White on all counts. The district court sentenced White to 84 months in prison: 24
months on Counts 1, 2, and 4, to run concurrently, and
the mandatory minimum of 60 months on Count 3, to
run consecutively. White timely appeals.
II.
On appeal, White contests the denial of his motion
to dismiss the indictment for speedy trial violations
and his motion to suppress evidence derived from the
cell phone tracking warrants. In addition, he argues
there was insufficient evidence to sustain his firearms
convictions. We begin with his speedy trial challenges.
A.
First, White argues the government violated the
Speedy Trial Act by failing to file an indictment
against him within thirty days of his 2013 arrest. The
government contends no violation occurred because
the parties stipulated to exclude two weeks of preindictment plea negotiations under § 3161(h)(1). We
agree with the government.
“We review de novo the district court’s interpretation of the Speedy Trial Act and its factual findings for
clear error.” United States v. Anderson, 695 F.3d 390,
396 (6th Cir. 2012). The Speedy Trial Act obligates the
government to file an indictment against a defendant
within thirty days of his arrest. See 18 U.S.C.
§ 3161(b). Section 3161(h) specifies which types of
delay are excludable. See § 3161(h). A delay under
§ 3161(h)(7) is excludable if the district court makes
case-specific findings. “As relevant here, subsection
(h)(1) requires the automatic exclusion of ‘[a]ny period
of delay resulting from other proceedings concerning

78a
the defendant, including but not limited to’ periods of
delay resulting from eight enumerated subcategories
of proceedings.” Bloate v. United States, 559 U.S. 196,
203 (2010) (quoting § 3161(h)(1) (footnote omitted)).
These delays “may be excluded without district court
findings.” Id.
White was arrested on May 2, 2013, and indicted on
June 4, 2013. The parties filed a stipulation with the
district court on May 17, 2013, agreeing to exclude the
time between May 23, 2013, and June 7, 2013, from
White’s Speedy Trial Act clock. In their stipulation,
the parties agreed to exclude the two-week period
under § 3161(h)(1), and also under § 3161(h)(7) because
“the ends of justice . . . outweigh the interests of the
public and the defendant in a speedy trial.” The stipulation further stated that White “concurs in this request and agrees that it is in his best interest.”
The magistrate judge found “that good cause exists
to extend the complaint and preliminary hearing” to
June 7, 2013, and ordered that the two-week period
“be excluded in calculating the time within which the
defendant shall be indicted under the Speedy Trial
Act.” He attached the parties’ stipulation to his order.
The district court judge upheld the order because it
was premised “in some measure on a stipulation,” but
also on “a finding by a judicial officer that the time was
appropriately excluded based upon the fact that the
parties were engaged in plea negotiations.”
White does not contest the district court’s finding
that the parties were engaged in plea negotiations
during the period in question. Nor does he offer any
evidence indicating that he did not “concur[] in this
request [or] agree[] that it is in his best interest[.]”
Instead, he argues the order is invalid because the
magistrate judge did not make any of the findings

79a
required for an ends-of-justice continuance under
§ 3161(h)(7). This argument, however, conflates the
ends-of-justice requirements with the automaticallyexcludable periods of delay under § 3161(h)(1).
In this Circuit, plea negotiations are “period[s] of
delay resulting from other proceedings concerning the
defendant” automatically excludable under § 3161(h)(1).
See United States v. Dunbar, 357 F.3d 582, 593 (6th
Cir. 2004) (“We have held that plea negotiations may
be excluded as ‘other proceedings’ pursuant to
§ 3161(h)(1).”), vacated and remanded on other grounds
by Dunbar v. United States, 543 U.S. 1099 (2005);
United States v. Bowers, 834 F.2d 607, 609–10 (6th
Cir. 1987) (per curiam) (“ . . . the plea bargaining process can qualify as one of many ‘other proceedings.’”).
Although the plea bargaining process is not expressly
specified in § 3161(h)(1), the listed proceedings “are
only examples of delay ‘resulting from other proceedings concerning the defendant’ and are not intended to
be exclusive.” Bowers, 834 F.2d at 610.
White’s indictment was delayed because he engaged, through counsel, in plea negotiations for a predetermined amount of time. This two-week period may
be excluded without making separate findings as required for an ends-of-justice continuance. See Dunbar,
357 F.3d at 593, 597 n.7. White concedes the point.
The district court thus did not clearly err in finding
that the parties had engaged in two weeks of preindictment plea negotiations and properly concluded
that these negotiations were excludable from the
Speedy Trial Act calculation.
B.
Second, White contends that the three-year delay
between his May 2010 arrest and his September 2013

80a
motion to dismiss violated the Sixth Amendment’s
Speedy Trial Clause. The district court found no violation because the Speedy Trial Clause did not apply
until White’s May 2013 arrest and detention on a
criminal complaint. We agree with the district court.
In determining whether a defendant’s Sixth Amendment right to a speedy trial has been violated, this
court reviews questions of law de novo and questions
of fact for clear error. United States v. Young, 657 F.3d
408, 413–14 (6th Cir. 2011). The Sixth Amendment
guarantees that, “[i]n all criminal prosecutions, the
accused shall enjoy the right to a speedy and public
trial[.]” U.S. Const. amend. VI. In Barker v. Wingo, 407
U.S. 514 (1972), the Supreme Court established four
factors for evaluating a speedy-trial claim: (1) whether
the delay was uncommonly long; (2) the reason for the
delay; (3) whether the defendant asserted his right to
a speedy trial; and (4) whether prejudice resulted to
the defendant. Id. at 530. “The first factor is a threshold requirement, and if the delay is not uncommonly
long, judicial examination ceases. A delay approaching
one year is presumptively prejudicial.” United States
v. Robinson, 455 F.3d 602, 607 (6th Cir. 2006) (citation
omitted).
White argues the delay in this case was over three
years long, but he is calculating from the wrong date
of arrest. Arrest can trigger an accused’s Sixth Amendment speedy trial rights. See United States v. MacDonald, 456 U.S. 1, 6 (1982). But “when no indictment is
outstanding, only the ‘actual restraints imposed by arrest and holding to answer a criminal charge . . .
engage the particular protections of the speedy trial
provision of the Sixth Amendment.’” United States v.
Loud Hawk, 474 U.S. 302, 310 (1986) (quoting United
States v. Marion, 404 U.S. 307, 320 (1971)); cf. Rashad

81a
v. Walsh, 300 F.3d 27, 36 (1st Cir. 2002) (“Although
arrest may trigger the right to a speedy trial, it does
not do so unless the arrest is the start of a continuous
restraint on the defendant’s liberty, imposed in connection with the same charge on which he is eventually put to trial.”). This is because the Speedy Trial
Clause reflects “the concern that a presumptively innocent person should not languish under an unresolved
charge[.]”2 Betterman v. Montana, 136 S. Ct. 1609,
1614 (2016).
White did not languish for three years under unresolved charges in this case. Although DEA agents
arrested White on May 14, 2010, they released him
into state custody that same day on an outstanding
Ohio warrant rather than charge him with federal
crimes. Thus, White was not “arrested and held to
answer criminal charges” in relation to this case until
his May 2013 arrest on a criminal complaint filed days
before. See United States v. Gouveia, 467 U.S. 180,
185–86 (1984) (“[T]he Sixth Amendment speedy trial
right is triggered when an individual is arrested and
held to answer criminal charges.”). And without
outstanding federal charges, White was, “at most, in
the same position as any other subject of a criminal
investigation.” See MacDonald, 456 U.S. at 8–9. Therefore, until his arrest on such charges, White’s “situa2

The right to a speedy trial is “not primarily intended to
prevent prejudice to the defense caused by passage of time; that
interest is protected primarily by the Due Process Clause and by
statutes of limitations.” MacDonald, 456 U.S. at 8. White’s prosecution satisfied the applicable five-year statute of limitations. See
18 U.S.C. § 3282(a). And while the Fifth Amendment’s Due
Process Clause provides limited protection against “oppressive”
pre-arrest or pre-indictment delay, United States v. Lovasco, 431
U.S. 783, 789 (1977), White does not raise a due process argument
in the alternative on appeal.

82a
tion [did] not compare with that of a defendant who
ha[d] been arrested and held to answer.” See id. at 9
(emphasis added) (quoting Marion, 404 U.S. at 321).
In short, White cannot satisfy the threshold Baker
factor. The delay between White’s 2013 arrest and his
motion to dismiss was approximately five months.
White does not explain how this five-month delay was
presumptively or actually prejudicial. Although it is
unclear why the government waited three years to
charge and arrest White in this matter, the Speedy
Trial Clause does not “limit the length of a preindictment criminal investigation even though ‘the [suspect’s] knowledge of an ongoing criminal investigation
will cause stress, discomfort, and perhaps a certain
disruption in normal life.’” Loud Hawk, 474 U.S. at
312 (quoting MacDonald, 456 U.S. at 9). Nor would
anyone’s interests “be well served by compelling
prosecutors to initiate prosecutions as soon as they are
legally entitled to do so.” Lovasco, 431 U.S. at 792
(footnote omitted). The district court thus did not err
in concluding that the Speedy Trial Clause was not
implicated until White’s May 2013 arrest, and the fivemonth delay between this arrest and his motion to
dismiss was not presumptively prejudicial.
C.
White also challenges the district court’s denial of
his motion to suppress evidence derived from tracking
his cell phone. When reviewing the district court’s ruling on a motion to suppress, this court reviews findings of fact for clear error and legal conclusions de
novo. United States v. Tackett, 486 F.3d 230, 232 (6th
Cir. 2007). “When the district court has denied the
motion to suppress, we review all evidence in a light
most favorable to the Government.” United States v.
Galloway, 316 F.3d 624, 628 (6th Cir. 2003).

83a
In denying White relief, the district court held that,
although the tracking warrants did not satisfy the
Fourth Amendment’s particularity requirement, the
Leon good-faith exception to the exclusionary rule
saved the evidence. White argues the district court
erred because a reasonable officer would have recognized the warrants as invalid. We need not reach this
argument, however, because White cannot show he
was prejudiced by the district court’s failure to suppress in the first instance.
Simply put, White does not point to any tracking
evidence introduced against him at trial. And while
the application in support of the warrant to search
White’s residence included some cell phone tracking
information, it only referenced the locations of phones
other than White’s. White does not contest the district
court’s legal conclusion that he does not have a reasonable expectation of privacy in cell phones other than
his own and therefore cannot challenge the seizure of
that data. Moreover, White’s theory that the tracking
evidence for his phone might have tainted the Title III
wiretap warrant is merely speculative. Since he did
not challenge the validity of this warrant in district
court, the record is devoid of relevant evidence, such
as the warrant itself. And, in any case, White does not
even assert plain error, let alone establish it.
Where resulting evidence has not affected a defendant’s trial, any error would be harmless, and this court
has declined to grant relief. See, e.g., United States v.
Charles, 138 F.3d 257, 264–65 (6th Cir. 1998) (failure
to suppress cell phone did not harm defendant because
government never introduced it at trial); see also
United States v. Davis, 531 F. App’x 601, 605 (6th Cir.
2013) (suppression challenge moot because defendant’s statement was not admitted at trial). Indeed,

84a
“exclusion may not be premised on the mere fact that
a constitutional violation was a ‘but-for’ cause of
obtaining evidence.” Hudson v. Michigan, 547 U.S.
586, 592 (2006). Since this is the only premise for
exclusion White submits, his suppression challenge
fails.
D.
Finally, White argues the evidence presented at
trial was insufficient for conviction on either firearm
possession charge. We review these claims de novo,
assessing the evidence “in the light most favorable to
the prosecution to determine whether any rational
trier of fact could have found the essential elements of
the crime beyond a reasonable doubt.” United States v.
Mack, 808 F.3d 1074, 1080 (6th Cir. 2015). “This
standard applies even if the evidence is purely
circumstantial. Consequently, in raising a sufficiency
of the evidence claim, a defendant ‘bears a very heavy
burden.’” United States v. Geisin, 612 F.3d 471, 489
(6th Cir. 2010) (citation omitted) (quoting United
States v. Spearman, 186 F.3d 743, 746 (6th Cir. 1999)).
To sustain a conviction for being a felon in possession of a firearm in violation of 18 U.S.C. § 922(g), the
government must prove the defendant had previously
been convicted of a felony, and he knowingly possessed
a firearm that had traveled in interstate commerce.
United States v. Morrison, 594 F.3d 543, 544 (6th Cir.
2010).
White challenges the sufficiency of the evidence
regarding possession only. The government advanced
its case against defendant based on a theory of constructive possession, which exists “when a person does
not have actual possession but instead knowingly has
the power and the intention at a given time to exercise

85a
dominion and control over an object, either directly or
through others.” United States v. Craven, 478 F.2d
1329, 1333 (6th Cir. 1973), abrogated on other grounds
by Scarborough v. United States, 431 U.S. 563 (1977).
Constructive possession may be proven by direct or
circumstantial evidence, and “[i]t is not necessary that
such evidence remove every reasonable hypothesis
except that of guilt.” Id. “Proof that ‘the person has
dominion over the premises where the firearm is
located’ is sufficient to establish constructive possession.” United States v. Kincaide, 145 F.3d 771, 782 (6th
Cir. 1998) (quoting United States v. Clemis, 11 F.3d
597, 601 (6th Cir. 1993) (per curiam)).
Even if White did not have exclusive possession of
the entire home, the government presented credible
evidence at trial that he had “dominion” over the master bedroom where the gun was found. When the
search began, White emerged from the master
bedroom where he had been sleeping. That is where he
kept his clothes. Also in that bedroom were his bank
statements, debit card, passport, social security card,
driver’s licenses, and cell phone. As there was no evidence of anyone else’s personal possessions in the master bedroom, a rational juror could infer that White
alone controlled that space. See United States v. Lewis,
No. 15–2386, 2016 WL 5922615, at *2 (6th Cir. Oct.
12, 2016) (finding constructive possession where a gun
was found in a bedroom containing men’s clothing,
mail addressed to defendant, his birth certificate, his
resume, and other papers).
White’s safe was also in the bedroom, in a closet. The
safe was locked, further limiting access to its contents.
But White must have known the combination, even if
he would not volunteer it to law enforcement, because
that is where he admittedly kept his drugs and his

86a
proceeds from their sale. A rational juror could reasonably infer that White had accessed the safe recently,
because he knew how many pills and how much cash
it contained. The gun was kept right next to these
items, immediately visible and accessible whenever
the safe was opened. White suggested someone else
must have put the gun in his safe during a party. A
rational juror could easily disbelieve this explanation,
however, and instead reasonably infer that White had
knowledge of, and dominion over, the gun locked in his
bedroom closet safe with his drugs and cash. See
United States v. Volkman, 797 F.3d 377, 391 (6th Cir.
2015) (finding constructive possession where defendant had access to a workplace safe containing a gun).
Drawing all reasonable inferences in the government’s
favor, the evidence is more than sufficient to lead a
rational trier of fact to conclude that White constructively possessed the firearm.
White further argues there is no evidence establishing a nexus between the gun and his drug trafficking
activities. Under 18 U.S.C. § 924(c)(1)(A), any person
“who, in furtherance of [a drug trafficking] crime, possesses a firearm, shall, in addition to the punishment
provided for . . . [the] drug trafficking crime—(i) be
sentenced to a term of imprisonment of not less than 5
years[.]” To prove that possession was “in furtherance
of” the drug trafficking crime, the government must
show a “specific nexus between the gun and the crime
charged” and that the firearm was “strategically located so that it [was] quickly and easily available for
use.” United States v. Mackey, 265 F.3d 457, 462 (6th
Cir. 2001). Other factors to consider include:
(1) “whether the gun was loaded,” (2) “the type of
weapon,” (3) “the legality of its possession,” (4) “the type

87a
of drug activity conducted,” and (5) “the time and
circumstances under which the firearm was found.” Id.
The government argued at trial that White had
strategically located his gun and ammunition with his
drugs and drug proceeds so he could easily access it if
he needed to protect his business. A rational juror
could credit this theory and conclude, in light of the
Mackey factors, that White possessed the gun in furtherance of his drug crimes. White stipulated to having a prior felony conviction and could not legally possess a gun. Moreover, the gun’s serial number was
obliterated, facilitating its illicit use because it could
not easily be traced. Although the gun was not loaded,
it would take little time to load it with the magazine
kept directly underneath it. See United States v. Sales,
247 F. App’x 730, 736 (6th Cir. 2007) (finding sufficient
evidence to support an “in furtherance” conviction
where, in addition to loaded weapons, “[t]he .12 gauge
shotgun, albeit unloaded, was in the kitchen near a
bag of rifle ammunition and the refrigerator containing marijuana.”). “When a weapon is found in a locked
safe placed alongside contraband, there is sufficient
evidence for a jury to determine that a defendant is in
possession of a firearm in furtherance of a drugtrafficking crime.” Volkman, 797 F.3d at 391. Drawing
all inferences in support of the verdict, we conclude
that a rational trier of fact could find that White possessed a gun in furtherance of his drug business.
III.
Finding no reversible error, we affirm the district
court’s judgment.

88a
APPENDIX F
138 S.Ct. 641
SUPREME COURT OF THE UNITED STATES
————
No. 17–270.
————
JIMMIE EUGENE WHITE, II,
Petitioner,
v.
UNITED STATES.
Respondent.
————
Jan. 8, 2018.
————
Synopsis
Case below, 679 Fed.Appx. 426.
Opinion
On petition for writ of certiorari to the United States
Court of Appeals for the Sixth Circuit. Petition for writ
of certiorari granted. Judgment vacated, and case
remanded to the United States Court of Appeals for
the Sixth Circuit for further consideration in light of
the confession of error by the Solicitor General in his
brief for the United States filed on November 30, 2017.
All Citations
138 S.Ct. 641 (Mem), 199 L.Ed.2d 522, 86 USLW
3321, 86 USLW 3330, 18 Cal. Daily Op. Serv. 229

89a
APPENDIX G
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
————
No. 16-1009
————
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
JIMMIE EUGENE WHITE, II,
Defendant-Appellant
————
ORDER
————
BEFORE: GUY, CLAY, and GRIFFIN, Circuit Judges.
The court received a petition for rehearing en banc.
The original panel has reviewed the petition for rehearing and concludes that the issues raised in the petition
were fully considered upon the original submission
and decision of the case. The petition then was circulated to the full court. No judge has requested a vote
on the suggestion for rehearing en banc.
Therefore, the petition is denied. Judge Guy adheres
to his concurrence. Judge Clay adheres to his concurrence and dissent.
ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

90a
APPENDIX H
United State Code Annotated
Title 18. Crimes and Criminal Procedure (Refs & Annos)
Part II. Criminal Procedure
Chapter 208. Speedy Trial (Refs & Annos)
18 U.S.C.A. § 3161
§ 3161. Time limits and exclusions
Effective: October 13, 2008
Currentness
(a) In any case involving a defendant charged with an
offense, the appropriate judicial officer, at the earliest
practicable time, shall, after consultation with the
counsel for the defendant and the attorney for the
Government, set the case for trial on a day certain, or
list it for trial on a weekly or other short-term trial
calendar at a place within the judicial district, so as to
assure a speedy trial.
(b) Any information or indictment charging an individual with the commission of an offense shall be filed
within thirty days from the date on which such
individual was arrested or served with a summons in
connection with such charges. If an individual has
been charged with a felony in a district in which no
grand jury has been in session during such thirty-day
period, the period of time for filing of the indictment
shall be extended an additional thirty days.
(c)(1) In any case in which a plea of not guilty is
entered, the trial of a defendant charged in an
information or indictment with the commission of an
offense shall commence within seventy days from the
filing date (and making public) of the information or
indictment, or from the date the defendant has
appeared before a judicial officer of the court in which

91a
such charge is pending, whichever date last occurs.
If a defendant consents in writing to be tried before
a magistrate judge on a complaint, the trial shall
commence within seventy days from the date of such
consent.
(2) Unless the defendant consents in writing to the
contrary, the trial shall not commence less than
thirty days from the date on which the defendant
first appears through counsel or expressly waives
counsel and elects to proceed pro se.
(d)(1) If any indictment or information is dismissed
upon motion of the defendant, or any charge contained
in a complaint filed against an individual is dismissed
or otherwise dropped, and thereafter a complaint is
filed against such defendant or individual charging
him with the same offense or an offense based on the
same conduct or arising from the same criminal episode,
or an information or indictment is filed charging such
defendant with the same offense or an offense based
on the same conduct or arising from the same criminal
episode, the provisions of subsections (b) and (c) of this
section shall be applicable with respect to such subsequent complaint, indictment, or information, as the
case may be.
(2) If the defendant is to be tried upon an indictment or information dismissed by a trial court and
reinstated following an appeal, the trial shall
commence within seventy days from the date the
action occasioning the trial becomes final, except
that the court retrying the case may extend the
period for trial not to exceed one hundred and eighty
days from the date the action occasioning the trial
becomes final if the unavailability of witnesses or
other factors resulting from the passage of time
shall make trial within seventy days impractical.

92a
The periods of delay enumerated in section 3161(h)
are excluded in computing the time limitations
specified in this section. The sanctions of section
3162 apply to this subsection.
(e) If the defendant is to be tried again following a
declaration by the trial judge of a mistrial or following
an order of such judge for a new trial, the trial shall
commence within seventy days from the date the
action occasioning the retrial becomes final. If the
defendant is to be tried again following an appeal or a
collateral attack, the trial shall commence within
seventy days from the date the action occasioning the
retrial becomes final, except that the court retrying
the case may extend the period for retrial not to exceed
one hundred and eighty days from the date the action
occasioning the retrial becomes final if unavailability
of witnesses or other factors resulting from passage of
time shall make trial within seventy days impractical.
The periods of delay enumerated in section 3161(h) are
excluded in computing the time limitations specified
in this section. The sanctions of section 3162 apply to
this subsection.
(f) Notwithstanding the provisions of subsection (b) of
this section, for the first twelve-calendar-month period
following the effective date of this section as set
forth in section 3163(a) of this chapter the time limit
imposed with respect to the period between arrest and
indictment by subsection (b) of this section shall be
sixty days, for the second such twelve-month period
such time limit shall be forty-five days and for the
third such period such time limit shall be thirty-five
days.
(g) Notwithstanding the provisions of subsection (c) of
this section, for the first twelve-calendar-month period
following the effective date of this section as set forth

93a
in section 3163(b) of this chapter, the time limit with
respect to the period between arraignment and trial
imposed by subsection (c) of this section shall be one
hundred and eighty days, for the second such twelvemonth period such time limit shall be one hundred and
twenty days, and for the third such period such time
limit with respect to the period between arraignment
and trial shall be eighty days.
(h) The following periods of delay shall be excluded in
computing the time within which an information or
an indictment must be filed, or in computing the
time within which the trial of any such offense must
commence:
(1) Any period of delay resulting from other proceedings concerning the defendant, including but
not limited to–
(A) delay resulting from any proceeding, including any examinations, to determine the mental
competency or physical capacity of the defendant;
(B) delay resulting from trial with respect to
other charges against the defendant;
(C) delay resulting from any interlocutory appeal;
(D) delay resulting from any pretrial motion,
from the filing of the motion through the conclusion of the hearing on, or other prompt disposition
of, such motion;
(E) delay resulting from any proceeding relating
to the transfer of a case or the removal of any
defendant from another district under the Federal
Rules of Criminal Procedure;
(F) delay resulting from transportation of any
defendant from another district, or to and from
places of examination or hospitalization, except

94a
that any time consumed in excess of ten days from
the date an order of removal or an order directing
such transportation, and the defendant’s arrival
at the destination shall be presumed to be
unreasonable;
(G) delay resulting from consideration by the
court of a proposed plea agreement to be entered
into by the defendant and the attorney for the
Government; and
(H) delay reasonably attributable to any period,
not to exceed thirty days, during which any
proceeding concerning the defendant is actually
under advisement by the court.
(2) Any period of delay during which prosecution is
deferred by the attorney for the Government pursuant to written agreement with the defendant, with
the approval of the court, for the purpose of allowing
the defendant to demonstrate his good conduct.
(3)(A) Any period of delay resulting from the
absence or unavailability of the defendant or an
essential witness.
(B) For purposes of subparagraph (A) of this
paragraph, a defendant or an essential witness
shall be considered absent when his whereabouts
are unknown and, in addition, he is attempting to
avoid apprehension or prosecution or his whereabouts cannot be determined by due diligence. For
purposes of such subparagraph, a defendant or an
essential witness shall be considered unavailable
whenever his whereabouts are known but his
presence for trial cannot be obtained by due
diligence or he resists appearing at or being
returned for trial.

95a
(4) Any period of delay resulting from the fact that
the defendant is mentally incompetent or physically
unable to stand trial.
(5) If the information or indictment is dismissed
upon motion of the attorney for the Government and
thereafter a charge is filed against the defendant for
the same offense, or any offense required to be joined
with that offense, any period of delay from the date
the charge was dismissed to the date the time
limitation would commence to run as to the subsequent charge had there been no previous charge.
(6) A reasonable period of delay when the defendant
is joined for trial with a codefendant as to whom the
time for trial has not run and no motion for severance has been granted.
(7)(A) Any period of delay resulting from a continuance granted by any judge on his own motion or at
the request of the defendant or his counsel or at the
request of the attorney for the Government, if the
judge granted such continuance on the basis of his
findings that the ends of justice served by taking
such action outweigh the best interest of the public
and the defendant in a speedy trial. No such period
of delay resulting from a continuance granted by the
court in accordance with this paragraph shall be
excludable under this subsection unless the court
sets forth, in the record of the case, either orally or
in writing, its reasons for finding that the ends of
justice served by the granting of such continuance
outweigh the best interests of the public and the
defendant in a speedy trial.
(B) The factors, among others, which a judge
shall consider in determining whether to grant a

96a
continuance under subparagraph (A) of this paragraph in any case are as follows:
(i) Whether the failure to grant such a continuance in the proceeding would be likely to make a
continuation of such proceeding impossible, or
result in a miscarriage of justice.
(ii) Whether the case is so unusual or so
complex, due to the number of defendants, the
nature of the prosecution, or the existence of
novel questions of fact or law, that it is unreasonable to expect adequate preparation for pretrial
proceedings or for the trial itself within the time
limits established by this section.
(iii) Whether, in a case in which arrest precedes
indictment, delay in the filing of the indictment
is caused because the arrest occurs at a time
such that it is unreasonable to expect return
and filing of the indictment within the period
specified in section 3161(b), or because the facts
upon which the grand jury must base its
determination are unusual or complex.
(iv) Whether the failure to grant such a continuance in a case which, taken as a whole, is
not so unusual or so complex as to fall within
clause (ii), would deny the defendant reasonable
time to obtain counsel, would unreasonably deny
the defendant or the Government continuity of
counsel, or would deny counsel for the defendant
or the attorney for the Government the reasonable time necessary for effective preparation,
taking into account the exercise of due diligence.
(C) No continuance under subparagraph (A) of
this paragraph shall be granted because of
general congestion of the court’s calendar, or lack

97a
of diligent preparation or failure to obtain
available witnesses on the part of the attorney for
the Government.
(8) Any period of delay, not to exceed one year,
ordered by a district court upon an application of a
party and a finding by a preponderance of the evidence that an official request, as defined in section
3292 of this title, has been made for evidence of any
such offense and that it reasonably appears, or
reasonably appeared at the time the request was
made, that such evidence is, or was, in such foreign
country.
(i) If trial did not commence within the time limitation
specified in section 3161 because the defendant had
entered a plea of guilty or nolo contendere subsequently withdrawn to any or all charges in an
indictment or information, the defendant shall be
deemed indicted with respect to all charges therein
contained within the meaning of section 3161, on the
day the order permitting withdrawal of the plea
becomes final.
(j)(1) If the attorney for the Government knows that a
person charged with an offense is serving a term of
imprisonment in any penal institution, he shall promptly–
(A) undertake to obtain the presence of the
prisoner for trial; or
(B) cause a detainer to be filed with the person
having custody of the prisoner and request him to
so advise the prisoner and to advise the prisoner
of his right to demand trial.
(2) If the person having custody of such prisoner
receives a detainer, he shall promptly advise the
prisoner of the charge and of the prisoner’s right to

98a
demand trial. If at any time thereafter the prisoner
informs the person having custody that he does
demand trial, such person shall cause notice to that
effect to be sent promptly to the attorney for the
Government who caused the detainer to be filed.
(3) Upon receipt of such notice, the attorney for the
Government shall promptly seek to obtain the
presence of the prisoner for trial.
(4) When the person having custody of the prisoner
receives from the attorney for the Government a
properly supported request for temporary custody of
such prisoner for trial, the prisoner shall be made
available to that attorney for the Government
(subject, in cases of interjurisdictional transfer, to
any right of the prisoner to contest the legality of his
delivery).
(k)(1) If the defendant is absent (as defined by
subsection (h)(3)) on the day set for trial, and the
defendant’s subsequent appearance before the court
on a bench warrant or other process or surrender to
the court occurs more than 21 days after the day set
for trial, the defendant shall be deemed to have first
appeared before a judicial officer of the court in which
the information or indictment is pending within the
meaning of subsection (c) on the date of the defendant’s subsequent appearance before the court.
(2) If the defendant is absent (as defined by subsection (h)(3)) on the day set for trial, and the defendant’s
subsequent appearance before the court on a bench
warrant or other process or surrender to the court
occurs not more than 21 days after the day set for
trial, the time limit required by subsection (c), as
extended by subsection (h), shall be further
extended by 21 days.

99a
APPENDIX I
United States Code Annotated
Title 18. Crimes and Criminal Procedure (Refs & Annos)
Part II. Criminal Procedure
Chapter 208. Speedy Trial (Refs & Annos)
18 U.S.C.A. § 3162
§ 3162.Sanctions
Currentness
(a)(1) If, in the case of any individual against whom a
complaint is filed charging such individual with an
offense, no indictment or information is filed within
the time limit required by section 3161(b) as extended
by section 3161(h) of this chapter, such charge against
that individual contained in such complaint shall be
dismissed or otherwise dropped. In determining whether
to dismiss the case with or without prejudice, the court
shall consider, among others, each of the following
factors: the seriousness of the offense; the facts and
circumstances of the case which led to the dismissal;
and the impact of a reprosecution on the administration of this chapter and on the administration of justice.
(2) If a defendant is not brought to trial within the
time limit required by section 3161(c) as extended
by section 3161(h), the information or indictment
shall be dismissed on motion of the defendant.
The defendant shall have the burden of proof of
supporting such motion but the Government shall
have the burden of going forward with the evidence
in connection with any exclusion of time under
subparagraph 3161(h)(3). In determining whether
to dismiss the case with or without prejudice, the
court shall consider, among others, each of the
following factors: the seriousness of the offense; the

100a
facts and circumstances of the case which led to the
dismissal; and the impact of a reprosecution on the
administration of this chapter and on the administration of justice. Failure of the defendant to move
for dismissal prior to trial or entry of a plea of guilty
or nolo contendere shall constitute a waiver of the
right to dismissal under this section.
(b) In any case in which counsel for the defendant or
the attorney for the Government (1) knowingly allows
the case to be set for trial without disclosing the fact
that a necessary witness would be unavailable for
trial; (2) files a motion solely for the purpose of delay
which he knows is totally frivolous and without merit;
(3) makes a statement for the purpose of obtaining a
continuance which he knows to be false and which
is material to the granting of a continuance; or
(4) otherwise willfully fails to proceed to trial without
justification consistent with section 3161 of this chapter,
the court may punish any such counsel or attorney, as
follows:
(A) in the case of an appointed defense counsel, by
reducing the amount of compensation that otherwise would have been paid to such counsel pursuant
to section 3006A of this title in an amount not to
exceed 25 per centum thereof;
(B) in the case of a counsel retained in connection
with the defense of a defendant, by imposing on such
counsel a fine of not to exceed 25 per centum of the
compensation to which he is entitled in connection
with his defense of such defendant;
(C) by imposing on any attorney for the Government a fine of not to exceed $250;
(D) by denying any such counsel or attorney for the
Government the right to practice before the court

101a
considering such case for a period of not to exceed
ninety days; or
(E) by filing a report with an appropriate disciplinary committee.
The authority to punish provided for by this subsection
shall be in addition to any other authority or power
available to such court.
(c) The court shall follow procedures established in
the Federal Rules of Criminal Procedure in punishing
any counsel or attorney for the Government pursuant
to this section.

102a
APPENDIX J
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
————
VIO: 21 U.S.C. § 846
21 U.S.C. § 841(a)(1)
18 U.S.C. § 924(c)(1)(A)
18 U.S.C. § 922(g)(1)
————
THE UNITED STATES OF AMERICA,
Plaintiff,
v.
JIMMIE EUGENE WHITE II,
Defendant.
————
INDICTMENT
THE GRAND JURY CHARGES:
COUNT ONE
21 U.S.C. § 846 – Conspiracy to distribute
N-Benzylpiperazine (“BZP”) and 3,4-methylenedioxyN-methylamphetamine (“ecstasy” or “MDMA”)
From in or about 2009 to on or about May 14, 2010,
in the Eastern District of Michigan, Southern Division,
Defendant, JIMMIE EUGENE WHITE II, did knowingly, intentionally, and unlawfully combine, conspire,
confederate, and agree with others unknown to the
Grand Jury to commit an offense against the United
States, that is, to distribute controlled substances (to
wit: N-Benzylpiperazine (“BZP”) and 3,4-methylenedioxy-

103a
N-methylamphetamine (“ecstasy” or “MDMA”), both of
which are Schedule I controlled substances), in violation Title 21, United States Code, Section 841(a)(1), all
of which constitutes a violation of Title 21, United
States Code, Section 846.
COUNT TWO
21 U.S.C. § 841(a)(1) – Possession of N-Benzylpiperazine (“BZP “) with intent to distribute
On or about May 14, 2010, in the Eastern District
of Michigan, Southern Division, Defendant, JIMMIE
EUGENE WHITE II, did knowingly, intentionally,
and unlawfully possess with intent to distribute a
quantity of N-Benzylpiperazine (“BZP”), a Schedule I
controlled substance, in violation of Title 21, United
States Code, Section 841(a)(1).
COUNT THREE
18 U.S.C. § 924(c)(1)(A) – Possession of a firearm in
furtherance of a drug trafficking crime
On or about May 14, 2010, in the Eastern District of
Michigan, Southern Division, Defendant, JIMMIE
EUGENE WHITE II, did knowingly possess a firearm
(to wit: a Cobray PM-11 9 mm handgun, serial number
obliterated) in furtherance of a drug trafficking
crime for which he may be prosecuted in a court of the
United States, specifically, possession of a controlled
substance (to wit: N-Benzylpiperazine (“BZP”)) with
intent to distribute, in violation of Title 21, United
States Code, Section 841(a)(1), all of which constitutes
a violation of Title 18, United States Code, Section
924(c)(1)(A).

104a
COUNT FOUR
18 U.S.C. § 922(g)(1) – Possession of a firearm by a
convicted felon
On or about May 14, 2010, in the Eastern District of
Michigan, Southern Division, Defendant, JIMMIE
EUGENE WHITE II, previously having been convicted of at least one crime punishable by imprisonment for a term exceeding one year (felony offense),
did knowingly possess a firearm (to wit: a Cobray PM11 9 mm handgun, serial number obliterated), which
had been manufactured outside of the State of Michigan and therefore had traveled in interstate or foreign
commerce, all in violation of Title 18, United States
Code, Section 922(g)(1).
FORFEITURE ALLEGATIONS
18 U.S.C. § 924(d); 21 U.S.C. § 853 – Criminal
forfeiture
1. The allegations contained in Counts One through
Four of this Indictment are hereby realleged and
incorporated by reference for the purpose of alleging
forfeiture pursuant to Title 18, United States Code,
Section 924(d) and Title 21, United States Code,
Section 853.
2. Upon conviction of one or more of the offenses
alleged in Counts One through Four of this Indictment,
Defendant, JIMMIE EUGENE WHITE II, shall forfeit
to the United States pursuant to Title 18, United
States Code, Section 924(d) and Title 21, United
States Code, Section 853, any property constituting, or
derived from, proceeds obtained, directly or indirectly,
as a result of the said violations and any property
used, or intended to be used, in any manner or part, to
commit, or to facilitate the commission of the said

105a
violations, including one Cobray PM-11 9 mm
handgun, serial number obliterated.
3. Such property includes, but is not limited to, a
money judgment, and all traceable interest and proceeds. Such sum in aggregate is property representing
the proceeds of the aforementioned offenses, or money
that was involved in those offenses, or is traceable to
such property, in violation of 18 U.S.C. §§ 922(g)(1),
924(c)(1)(A) and/or 21 U.S.C. § 841(a)(1).
4. Pursuant to Title 21, United States Code, Section
853(p), as incorporated by Title 18, United States
Code, Section 982(b), if the property described above
as being subject to forfeiture, as a result of any act or
omission of the defendant:
i. cannot be located upon the exercise of due
diligence;
ii. has been transferred or sold to, or deposited
with, a third party;
iii. has been placed beyond the jurisdiction of the
Court;
iv. has been substantially diminished in value; or
v. has been commingled with other property that
cannot be subdivided without difficulty;
it is the intent of the United States, pursuant to 21
U.S.C. § 853(p), to seek to forfeit any other property of
the defendant up to the listed value.
THIS IS A TRUE BILL.
/s/ Grand Jury Foreperson
GRAND JURY FOREPERSON
BARBARA L. McQUADE
United States Attorney

106a
/s/ Kevin Mulcahy
KEVIN MULCAHY
Assistant United States Attorney
Chief, General Crimes Unit
/s/ Gabriel S. Mendlow
GABRIEL S. MENDLOW
Special Assistant United States Attorney
211 West Fort Street, Ste. 2001
Detroit, Michigan 48226-3220
(313) 226-9643
CT Juris No. 432916
Date: June 4, 2013

107a
United States District Court Eastern District of
Michigan
NOTE: It is the responsibility of the Assistant U.S.
Attorney signing this form to c
Case: 2:13-cr-20423
Judge: Lawson, David M.
MJ: Whalen, R. Steven
Filed: 06-04-2013 At 03:51 PM
INDI USA V JIMMIE EUGENE WHITE II EB)
Companion Case Information
This may be a companion case based upon LCrR
57.10 (b)(4)1
Yes

No

Companion Case Number: N/A
Judge Assigned: N/A
AUSA’s Initials: GSM
Case Title: USA v. JIMMIE EUGENE WHITE
County where offense occurred: Wayne
Check One: Felony

Misdemeanor

Petty

Indictment/ Information--- no prior complaint


Indictment/ Information--- based upon prior
complaint [Case number: 13-30265]
Indictment/ Information--- based upon LCrR
57.10(d) [Complete Superseding section below]

1

Companion cases are matters in which it appears that (1)
substantially similar evidence will be offered at trail, (2) the same
or related parties are present, and the cases arise out of the same
transaction or occurrence. Cases may be companion cases even
though one of them may have already been terminated.

108a
Superseding Case Information
Superseding Case No:

Judge:

 Original case was terminated; no additional
charges or defendants
 Corrects errors; no additional charges or
defendants
 Involves, for plea purposes, different charges
or adds counts.
 Embraces same subject matter but adds the
additional defendants or charges below:
Defendant name

Charges

Prior Complaint
(if applicable)

Please take notice that the below listed Assistant
United States Attorney is the attorney of record for
the above captioned case
June 4, 2013
Date
/s/ Gabriel S. Mendlow
GABRIEL S. MENDLOW
Special assistant United States Attorney
211 W. Fort Street, Suite 2001
Detroit, MI 48226-3277
Phone: (313) 226-9643
Fax: (313) 226-2621
E-Mail address: gabriel.mendlow@usdoj.gov

